<html>
<title> - JIHADIST SAFE HAVENS: EFFORTS TO DETECT AND DETER TERRORIST TRAVEL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






   JIHADIST SAFE HAVENS: EFFORTS TO DETECT AND DETER TERRORIST TRAVEL

=======================================================================


                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2014

                               __________

                           Serial No. 113-80

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
        
                      U.S. GOVERNMENT PUBLISHING OFFICE 

91-932 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
         I. Lanier Avant, Minority Subcommittee Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Paul C. Broun, Georgia               Brian Higgins, New York
Patrick Meehan, Pennsylvania, Vice   Loretta Sanchez, California
    Chair                            William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Bennie G. Thompson, Mississippi 
Curtis Clawson, Florida                  (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Mandy Bowers, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
            Hope Goins, Minority Subcommittee Staff Director
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Frederick W. Kagan, Director, Critical Threats Project, 
  American Enterprise Institute:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9
Mr. Robin Simcox, Research Fellow, The Henry Jackson Society:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Peter Brookes, Senior Fellow, National Security Affairs, 
  Davis Institute for National Security and Foreign Policy, The 
  Heritage Foundation:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. Seth G. Jones, Director, International Security and Defense 
  Policy Center, The Rand Corporation:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

 
   JIHADIST SAFE HAVENS: EFFORTS TO DETECT AND DETER TERRORIST TRAVEL

                              ----------                              


                        Thursday, July 24, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Broun, Clawson, Higgins, and 
Thompson.
    Mr. King. Good morning. First of all, thank you for being 
here. It is really--it is very much appreciated. I know I speak 
for the Ranking Member, as well.
    The Committee on Homeland Security, Subcommittee on 
Counterterrorism and Intelligence will come to order. The 
subcommittee is meeting today to hear testimony examining 
jihadist safe havens and efforts to detect and deter terrorist 
travel. I now recognize myself for an opening statement.
    Today we know at least 100 Americans have traveled or 
attempted to travel to Syria for the purpose of joining an 
Islamist extremist group, either al-Nusra Front, the Islamic 
State of Iraq and al-Sham (ISIS), or another. We also know that 
several thousand individuals from European nations have flocked 
to Syria, and likely now Iraq, for the same purpose.
    Fifteen months ago, this subcommittee held a hearing on the 
growing threat posed to the homeland from al-Qaeda, which 
focused on foreign fighters from around the world converging on 
the war zone in Syria. Since that time, from all accounts, the 
situation has dramatically worsened. The number of al-Qaeda-
affiliated and jihadist groups has multiplied.
    In May 2014, FBI Director Comey noted that the current 
Syrian conflict, ``is an order of magnitude'' worse than 
Afghanistan in the 1980s and 1990s. With stunning velocity, the 
group formerly known as al-Qaeda in Iraq has evolved into the 
Islamic State of Iraq and al-Sham, and established what it 
calls a caliphate that spans across portions of Iraq and Syria.
    While core al-Qaeda leadership may have diminished 
capacity, in recent months, it has sought to rebuild as U.S. 
forces withdraw from Afghanistan, and al-Qaeda affiliates 
around the world are as strong as ever. ISIS has ruthlessly 
captured cities, killed indiscriminately, and mobilized 
thousands of foreign fighters to its cause. It moves its men 
and arms at will into safe havens on both sides of the Iraqi-
Syrian border.
    At least one American has died as a suicide bomber after 
spending 2 months in a training camp operated by al-Nusra Front 
in Aleppo. Twenty-two-year-old Moner Mohammed Abusalha, who was 
born and raised in Florida and reportedly traveled to Syria in 
late 2013, blew himself up in an attack in Syria on May 25, 
2014.
    The threat is not limited to U.S. persons fighting and 
being radicalized overseas or constrained to battlefields in 
Syria and Iraq. On May 24, French jihadist and Syrian war 
veteran Mehdi Nemmouche attacked a Jewish museum in Brussels.
    Compounding the threat is the potential for terror groups 
to coordinate and share expertise, as well as fighters. Last 
month, we all followed press reports that members of al-Nusra 
had possibly linked up with bomb-making experts from AQAP, al-
Qaeda in the Arabian Peninsula. The potent combination of 
AQAP's bomb-making expertise and al-Nusra's large pool of 
radical converts, including U.S. and European passport-holders, 
poses a severe threat to the homeland.
    These concerns recently caused the United States to require 
additional security measures to enhance screening of travelers 
and luggage on U.S.-bound flights. Attorney General Holder's 
comments that, ``the Syrian conflict has turned that region 
into a cradle of violent extremism,'' are important. As he 
said, the world cannot let it become a training ground from 
which our nationals can return and launch attacks.
    Unfortunately, as we have seen too often, words from key 
administration officials have not translated into plans and 
action. Political instability and American disengagement in the 
region has created the conditions allowing radical jihadism to 
regenerate and metastasize. It is essential that the White 
House articulates American interests in the region and elicits 
greater cooperation from European and foreign partners to 
identify and track individuals seeking to join extremist 
groups.
    As the diaspora of fighters and ideology spreads, there 
will be long-term consequences and a direct threat to the 
United States and to the West. It is time for the 
administration and the Congress to implement a plan to 
safeguard the homeland before Westerners who have become 
further radicalized in these conflicts are sent home to carry 
out attacks.
    I especially want to thank Dr. Simcox and Dr. Jones, who 
have previously testified before our committee. We also want to 
welcome Fred Kagan, who I had the opportunity of meeting, I 
guess, 7 or 8 years ago now when you were in the process of 
formulating the surge policy in Iraq, you and General Keane. I 
remember that meeting very well. And Peter Brookes, who has 
been a long-time warrior in this fight against terrorism.
    So you are here to put ISIS's growth in perspective, a 
group which was not even discussed a year ago, but now controls 
large portions of territory in Syria and Iraq and poses a 
significant threat to the United States. I look forward to the 
panel's update and would like to thank our distinguished panel 
of witnesses in advance.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
    Today we know that at least 100 Americans have traveled or 
attempted to travel to Syria for the purpose of joining an Islamist 
extremist group, either al-Nusrah Front, the Islamic State of Iraq and 
al-Sham (ISIS), or another. We also know that several thousand 
individuals from European nations have flocked to Syria, and likely now 
Iraq, for the same purpose.
    Fifteen months ago, this subcommittee held a hearing on the growing 
threat posed to the homeland from al-Qaeda, which focused on foreign 
fighters from around the world converging on the war zone Syria. Since 
that time, from all accounts the situation has dramatically worsened. 
The number of al-Qaeda-affiliated and jihadist groups have multiplied. 
In May 2014, FBI Director Comey noted that the current Syrian conflict 
``is an order of magnitude'' worse than Afghanistan in the 1980s and 
1990s. And with stunning velocity, the group formerly known as al-Qaeda 
in Iraq has evolved into the Islamic State of Iraq and al-Sham, and 
established what it calls a caliphate that spans across portions of 
Iraq and Syria.
    While core al-Qaeda leadership may have diminished capacity, in 
recent months they have sought to rebuild as U.S. forces withdraw from 
Afghanistan, and al-Qaeda affiliates around the world are as strong as 
ever. ISIS has ruthlessly captured cities, killed indiscriminately, and 
mobilized thousands of foreign fighters to its cause. It moves its men 
and arms at will into safe havens on both sides of the Iraqi-Syrian 
border.
    At least one American has died as a suicide bomber after spending 2 
months in a training camp operated by al-Nusrah Front in Aleppo. 
Twenty-two-year-old Moner Mohammed Abusalha, who was born and raised in 
Florida and reportedly traveled to Syria in late 2013, and blew himself 
up in an attack in Syria on May 25, 2014.
    The threat is not limited to U.S. persons fighting and being 
radicalized overseas, or constrained to battlefields in Syria and Iraq. 
On May 24, French jihadist and Syrian war veteran Mehdi Nemmouche 
attacked a Jewish museum in Brussels.
    Compounding the threat is the potential for terror groups to 
coordinate and share expertise, as well as fighters. Last month, we all 
followed press reports that members of al-Nusrah had possibly linked up 
with bomb-making experts from al-Qaeda in the Arabian Peninsula (AQAP). 
The potent combination of AQAP's bomb-making expertise and al-Nusrah's 
large pool of radical converts including U.S. and European passport 
holders, poses a significant threat to the homeland. These concerns 
recently caused the United States to require additional security 
measures at certain foreign airports to enhance screening of travelers 
and luggage on U.S.-bound flights.
    Attorney General Eric Holder's comments that ``the Syrian conflict 
has turned that region into a cradle of violent extremism,'' are 
important. As he said, ``the world cannot let it become a training 
ground from which our nationals can return and launch attacks.'' 
Unfortunately, as we have seen far too often, words from key 
administration officials, including the President, have not translated 
into plans and action. Political instability and American disengagement 
in the region has created the conditions allowing radical jihadism to 
re-generate and metastasize.
    It is essential that the White House articulates American interests 
in the region, and elicits greater cooperation from European and 
foreign partners to identify and track individuals seeking to join 
extremist groups. As the diaspora of fighters and ideology spreads, 
there will be long-term consequences and a direct threat to the United 
States and the West. It is time for the administration to implement a 
plan to safeguard the homeland before Westerners who have become 
further radicalized in these conflicts are sent home to carry out 
attacks.
    I would like to welcome back Mr. Simcox and Dr. Jones, who 
testified at our hearing last year. It appears that over the last year 
the situation on the ground have gotten substantially worse for 
American interests in the region. To put ISIS's growth in perspective--
a group not discussed a year ago now controls large portions of 
territory in Syria and Iraq and poses a significant threat to the 
United States.
    I look forward to the panel's update, with the additional input 
from Dr. Kagan and Dr. Brookes, on the spreading conflict and would 
like to thank our distinguished panel of witnesses in advance.

    Mr. King. With that, I yield to the Ranking Member from New 
York, Mr. Higgins.
    Mr. Higgins. Thank you, Chairman King, for holding this 
hearing. This hearing is a timely and necessary follow-up to 
our hearing last May regarding al-Qaeda operations in both Iran 
and Syria. I would also--I think that is supposed to be Iraq.
    I would also like to thank the witnesses for appearing to 
testify as we expand our understanding about travel patterns of 
foreign fighters in Syria and Iraq and how they continue to 
impact the United States homeland. U.S. intelligence officials 
report that at least 7,000 fighters from more than 50 countries 
across the Middle East, North Africa, Europe, Asia, including 
dozens of volunteers from the United States, have traveled to 
Syria to support armed opposition groups there.
    Other estimates by non-governmental sources suggested over 
100,000 pro-opposition foreign fighters have traveled to Syria. 
Overall, the United States Government estimates place the 
strength of armed opposition forces, including foreign 
fighters, between 75,000 and 110,000 persons. Some of these 
opposition groups are U.S.-designated terrorist organizations, 
and a subset of dedicated extremist fighters may pose an 
outsized threat. Thousands of other non-Syrian fighters 
reportedly are fighting in Syria to support the government of 
Bashar al-Assad, including members of Lebanese Hezbollah, the 
Iranian military, and Iraq-Shia militias.
    Foreign fighters contribute to the persistence of the armed 
conflict in Syria, and they also pose external security risks 
now or in the near future. To date, the FBI has arrested a 
handful of U.S. citizens and residents on charges of providing 
material support to terrorist groups and using certain weapons 
in connection with the conflict in Syria.
    Officials in European and Asian governments have also made 
several arrests of would-be foreign fighters, returned foreign 
fighters or their recruiters and facilitators. It is imperative 
that the United States focus not only on the United States 
persons traveling to and from Syria, but also persons traveling 
to and from our neighboring countries, as well.
    On April 22, 2013, the Canadian police announced the arrest 
of two people in connection with plotting a terrorist attack on 
a passenger train that travels from Toronto through Niagara 
Falls, New York, and into New York City. According to Canadian 
officials, the alleged terrorists were receiving assistance 
from al-Qaeda elements in Iran. Last year's plot in Canada 
raises questions both about whether al-Qaeda operatives in Iran 
and Syria have access to a broader terror network and whether 
Canada is a target for terrorist activity or recruitment.
    Today, in addition to their testimony on the larger issues 
of foreign fighters, I would ask our witnesses to provide 
information on foreign fighters in Canada and the potential for 
these individuals to enter the United States via Canada after 
returning from Syria or Iraq.
    Again, I look forward to today's testimony. With that, I 
will yield back.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                             July 24, 2014
    This hearing is a timely and necessary follow-up to our hearing 
last May regarding al-Qaeda operations in both Iran and Syria. I would 
also like to thank the witnesses for appearing to testify as we expand 
our understanding about travel patterns of foreign fighters in Syria 
and Iraq and how they continue to impact on the U.S. homeland.
    U.S. intelligence officials report that at least 7,000 fighters 
from more than 50 countries across the Middle East, North Africa, 
Europe, Asia, including dozens of volunteers from the United States, 
have traveled to Syria to support armed opposition groups there. Other 
estimates by non-Government sources suggest that over 10,000 pro-
opposition foreign fighters have travelled to Syria. Overall, U.S. 
Government estimates place the strength of armed opposition forces--
including foreign fighters--between 75,000 and 110,000 persons.
    Some of these opposition groups are U.S.-designated terrorist 
organizations, and a subset of dedicated extremist fighters may pose an 
outsized threat. Thousands of other non-Syrian fighters reportedly are 
fighting in Syria to support the government of Bashar al Assad, 
including members of Lebanese Hezbollah, the Iranian military, and 
Iraqi Shia militias.
    Foreign fighters contribute to the persistence of the armed 
conflict in Syria and may also pose external security risks now or in 
the near future. To date, the FBI has arrested a handful of U.S. 
citizens and residents on charges of providing material support to 
terrorist groups and using certain weapons in connection with the 
conflict in Syria.
    Officials in European and Asian governments have also made several 
arrests of would-be foreign fighters, returned foreign fighters, or 
their recruiters and facilitators. It is imperative that United States 
focus not only on U.S. persons traveling to and from Syria, but also 
persons traveling to and from our neighboring countries as well.
    On April 22, 2013, the Canadian Police announced the arrest of two 
people in connection with plotting a terrorist attack on a passenger 
train that travels from Toronto, through Niagara Falls, New York, into 
New York City. According to Canadian officials, the alleged terrorists 
were receiving assistance from al-Qaeda elements in Iran.
    Last year's plot in Canada raises questions both about whether al-
Qaeda operatives in Iran and Syria have access to a broader terror 
network, and whether Canada is a target for terrorist activity or 
recruitment.
    Today, in addition to their testimony on the larger issues of 
foreign fighters, I would like our witnesses to provide information on 
foreign fighter transit in Canada, and the potential for these 
individuals, to enter the United States via Canada after returning from 
Syria or Iraq.

    Mr. King. The gentleman yields back.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 24, 2014
    As the committee continues examine the homeland security 
implications of foreign fighting, it is important to revisit the facts 
that have lead us to this point. As fighting continues across Syria, 
government forces and their allies are being pitted against a range of 
anti-government insurgents. The disorder is so rampant that at times, 
many of these insurgent groups are even fighting amongst themselves.
    While the total population of Syria is more than 22 million, the 
Civil War has driven more than 2.8 million Syrians into neighboring 
countries as refugees, since March 2011. Millions more Syrians are 
internally displaced and in need of humanitarian assistance, of which 
the United States remains the largest bilateral provider, with more 
than $2 billion in funding.
    The United States also has allocated a total of $287 million to 
provide non-lethal assistance to select groups. While it is difficult 
to know exactly what is happening on the ground in Syria, as it changes 
day-to-day, it seems neither pro-Assad forces nor their opponents are 
capable of achieving outright victory in the short term.
    In the interim, conflict between the Islamic State of Iraq and the 
Levant (ISIL) and other anti-Assad forces has also caused an increase 
in war fighting. Outside of Syria, the Syrian Civil War has caused an 
increase of religious-sect and political group conflicts in Iraq and 
Lebanon. It is clear that the Syrian conflict has national security 
implications that can be felt across the globe.
    However, the current humanitarian and security crises within Syria 
are beyond the power of any single actor to resolve, including the 
United States. Top U.S. officials have made public statements warning 
that Syria-based extremists may pose a direct terrorist threat to the 
United States, including some foreign fighters who hold U.S., Canadian, 
or European passports.
    Director of National Intelligence James Clapper has stated that an 
al-Qaeda-affiliated group within Syria ``does have aspirations for 
attacks on the homeland.''
    Central Intelligence Agency Director, John Brennan, has publically 
identified al-Qaeda-tied groups and the Islamic State of Iraq and the 
Levant (ISIL) within Syria as a concern for the recruitment of 
individuals and the development of capabilities to be able to carry out 
attacks inside of Syria and also to use Syria as a launching pad.
    In February of this year, as his first public address as Secretary, 
Department of Homeland Security Secretary Jeh Johnson acknowledged that 
Syria has become a matter of homeland security.
    He did so because U.S. law-enforcement and intelligence officials 
know individuals from North America and Europe are heading to Syria and 
will be exposed to radical and extremist influences before possibly 
returning to their home countries with intent to do harm.
    Amid all the human suffering, in-fighting, and homeland security 
implications, it may seem lost that the Syrian conflict was once a mass 
civic movement advocating for greater political freedom.
    It is imperative for us to focus diplomatic efforts on coordinating 
with foreign fighter source, transit, and returnee destination 
countries to strengthen shared responses and preventive measures. I 
hope our conversation today provides insight into the full scope of the 
foreign fighter issues and how both U.S. and international officials 
can work to coordinate both intelligence and response efforts.

    Mr. King. We are--as I said before--pleased to have a very 
distinguished panel of witnesses before us today on this 
important topic.
    Our first witness will be Dr. Fred Kagan, who is the 
Christopher DeMuth chair and director of the American 
Enterprise Institute's Critical Threats Project. This project 
is dedicated to tracking and analyzing key and emerging 
National security threats to our Nation in order to inform on-
going policy discussions. Prior to joining AEI, Dr. Kagan was a 
professor of military history at West Point. As I mentioned 
before, my first dealing with Dr. Kagan was back in 2007 when 
he I thought presented the most cogent analysis--you and 
General Keane--of the situation in Iraq and really laid out a 
battle plan and message which did succeed. Unfortunately, that 
has not been followed-up on, but I want to thank you for your 
service and I look forward to your testimony.
    Dr. Kagan, you are recognized.

  STATEMENT OF FREDERICK W. KAGAN, DIRECTOR, CRITICAL THREATS 
             PROJECT, AMERICAN ENTERPRISE INSTITUTE

    Mr. Kagan. Thank you, Mr. Chairman, and Ranking Member, and 
thanks to the committee for holding this hearing. One of the 
things that has struck me is that in the midst of a public 
policy debate that is sometimes not well-moored in reality, the 
discussions that I have had about these topics on the Hill have 
been very serious and very thoughtful and very bipartisan. I 
think that that is a testimony to the seriousness with which 
you all take the security of the United States, and I am 
grateful to you for it.
    The establishment and expansion of the Islamic State in 
Iraq and Syria represents a step change in the threat to 
American homeland security and National security generally. 
This is the first time that an al-Qaeda-affiliated group has 
made the leap from stateless terrorist organization to a quasi-
state with a combat-effective army and the resources of a 
modern urban region at its disposal.
    The Islamic State has declared its intention of attacking 
Americans and is actively recruiting U.S. and European 
passport-holders. It has acquired radioactive material from 
Mosul University and many millions of dollars from banks in 
Mosul and Anbar. We have never seen an al-Qaeda threat of this 
magnitude before, and we must face it squarely now or face the 
consequences later.
    The Islamic State's relationship with al-Qaeda and its 
leader, Ayman al-Zawahiri, is complex and fraught. The Islamic 
State evolved from the organization known as al-Qaeda in Iraq, 
which was a formal and recognized al-Qaeda affiliate. The group 
changed its name to the Islamic State of Iraq in 2006, and al-
Qaeda leadership accepted that change, although grudgingly. 
When it began calling itself the Islamic State of Iraq and al-
Sham, ISIS, in 2013, however, asserting its control over the 
operations of al-Qaeda affiliate Jabhat al-Nusra in Syria, 
Zawahiri balked. Jabhat al-Nusra protested vigorously and 
appealed to Zawahiri, who ruled on its behalf and ordered ISIS 
to confine itself to Iraq.
    The ISIS leader, Abu Bakr al-Baghdadi, now styling himself 
as Caliph Ibrahim, rejected Zawahiri's order, leading to an 
escalating rhetorical fight that ended with Zawahiri expelling 
ISIS from al-Qaeda, at least the portion of ISIS that was in 
Syria in early 2014. It was never clear, however, that Zawahiri 
was denying the continued validity of the al-Qaeda franchise in 
Iraq. It is my assessment that ISIS, the Islamic State, that 
is, remains a part of the larger al-Qaeda family, whatever its 
formal affiliation with the group might be.
    Other groups within the larger al-Qaeda-associated family 
have established statelets and armies before. The Afghan 
Taliban had both in the 1990s. Al-Shabaab had much more 
constrained versions in Somalia after 2009. Al-Qaeda in the 
Arabian Peninsula briefly ruled parts of Abyan and Shabwah 
provinces in Yemen, although its rule and its conventional 
military capabilities proved too tenuous to hold.
    None of these situations were remotely as dangerous to the 
United States as the Islamic State is today, largely because 
they occurred in areas of the world that were impoverished, 
lacked basic resources, let alone the advanced technological, 
human capital, and financial resources of the areas they now 
control in Iraq and Syria.
    Recognizing the danger is not the same as seeing a 
solution, however. The Islamic State was able to advance 
rapidly because hollowed-out and demoralized Iraqi security 
forces in the north collapsed. Its advance ceased for the 
moment in large part because of the mobilization of Iranian-
backed Shia militias and an armed populace. Even so, Iran has 
had to deploy probably hundreds of members of its own IRGC, the 
commander of its Quds Force, Qassem Soleimani, and elements of 
the IRGC air force, as well, to stave off the Islamic State's 
attacks.
    The situation remains tenuous, and the security of Baghdad 
is by no means as certain as many appear to believe. The 
Islamic State is not 10 feet tall, but neither is it 
negligible, and nor is its collapse inevitable.
    The Iranian presence and obvious fear of the Islamic State 
has led some Americans to muse on the feasibility of either 
letting the Iranians fight this fight for us or even actively 
cooperating with Tehran against a common enemy. This 
superficially plausible strategy will not survive contact with 
the reality that the Iranian leadership sees the Islamic State 
as an American-created and -supported tool for retaining U.S. 
influence in the region having abandoned Iraq and Afghanistan 
and lost in Syria.
    Supreme Leader Ayatollah Ali Khamenei and his closest 
associates have categorically rejected cooperation with the 
United States in Iraq, even in the midst of the nuclear 
negotiations. Even if we could somehow persuade Khamenei to 
work with us, the results would not be satisfactory. It is, 
after all, Iranian policy and strategy that helped get us to 
this point. Iran consistently pursues a sectarian approach to 
the conflict that fuels the flames of the insurgency and 
creates fertile ground for recruitment for al-Qaeda.
    The prospect of sending American ground forces back into 
Iraq is distasteful, to say the least. Some have argued for a 
sort of expanded drone campaign--expanded from nothing, by the 
way, because until the fall of Mosul, we were taking reportedly 
absolutely no actions against growing al-Qaeda franchises in 
Iraq and Syria, creating one of the largest safe havens for 
those two groups anywhere in the world.
    But even an expanded drone campaign will fail. Even air 
strikes will fail. As Brett McGurk recently testified, we are 
now looking at a full-blown army with a state, not a terrorist 
organization. The track record of these kinds of attacks even 
against terrorist organizations is extremely limited.
    We need to do a few things to address this problem right 
now, and then we need to think hard about what the long-term 
solutions are going to be. It starts, of course, with 
recognizing the magnitude of the threat. Of course, ISIS, or 
the Islamic State, is only part of that threat.
    It starts with recognizing that we have to stop the process 
of disarming ourselves. We have to reverse the defense cuts 
that were made in the name of an austerity that seemed to have 
affected only the defense budget and that are out of touch with 
the reality of our time, when the tide of war is not receding, 
but rather flowing.
    We also have to make the very unpalatable choice to 
recognize that we cannot continue to attack our intelligence 
community to strip it of its capabilities to watch growing 
threats and to provide warning in an era when the threats are 
growing and our capabilities for dealing with them have 
diminished.
    I firmly believe in the principles of privacy and civil 
liberties and I believe that we must do everything in our power 
to defend those core principles of the American way of life, 
but we also need to recognize that nothing is more dangerous to 
that way of life and to our civil liberties over the long run 
than the prospect of renewed terrorist attacks that will drive 
fear and stampede us into eliminating all of those protections.
    If we want to protect our way of life, we have to protect 
ourselves against attack now, and that means that we have to 
invest in and support our armed forces and our intelligence 
community, while simultaneously developing a very complicated 
and very difficult, probably expensive strategy for dealing 
with an extremely serious threat.
    I thank the committee for its time.
    [The prepared statement of Mr. Kagan follows:]
                Prepared Statement of Frederick W. Kagan
                             July 24, 2014
    The establishment and expansion of the Islamic State in Iraq and 
Syria (IS) represents a step-change in the threat to American homeland 
security and National security generally. This is the first time that 
an al-Qaeda-affiliated group has made the leap from stateless terrorist 
organization to a quasi-state with a combat-effective army and the 
resources of a modern urban region at its disposal. The Islamic State 
has declared its intention of attacking Americans and is actively 
recruiting U.S. and European passport holders. It has acquired 
radioactive material from Mosul University and many millions of dollars 
from banks in Mosul and Anbar. We have never seen an al-Qaeda threat of 
this magnitude before and we must face it squarely now--or face the 
consequences later.
    The Islamic State's relationship with al-Qaeda and its leader, 
Ayman al-Zawahiri, is complex and fraught. The IS evolved from the 
organization known as al-Qaeda in Iraq, which was a formal and 
recognized al-Qaeda affiliate. The group changed its name to the 
Islamic State of Iraq in 2006, and al-Qaeda leadership accepted that 
change, although grudgingly. When it began calling itself the Islamic 
State of Iraq and al-Sham (ISIS) in 2013, however, asserting its 
control over the operations of al-Qaeda affiliate Jabhat al-Nusra in 
Syria, Zawahiri balked. Jabhat al-Nusra protested vigorously and 
appealed to Zawahiri, who ruled on its behalf and ordered ISIS to 
confine itself to Iraq. The ISIS leader, Abu Bakr al Baghdad (now 
styling himself as Caliph Ibrahim), rejected Zawahiri's order, leading 
to an escalating rhetorical fight that ended with Zawihiri expelling 
ISIS from al-Qaeda--at least, the portion of ISIS that was in Syria in 
early 2014. It was never clear that Zawahiri was denying the continued 
validity of the al-Qaeda franchise in Iraq.
    This dispute led to commentary suggesting that ISIS was no longer 
part of al-Qaeda, which has led to a certain confusion in policy 
discussions. But the intra-al Qaeda tensions are actually of interest 
only to students of al-Qaeda and those who parse the 2001 Authorization 
to Use Military Force (AUMF) with a microscope. In reality, IS remains 
a part of the global al-Qaeda movement. It is pursuing the same 
ideology--the argument, in fact, was over the fact that Zawahiri thinks 
that Caliph Ibrahim is moving too fast along the path toward the global 
caliphate. It continues to draw on the same pool of financial 
supporters, recruiters, and would-be suicide bombers or transnational 
fighters. It remains, in other words, a serious threat to the United 
States and the West.
    Other groups within the larger al-Qaeda-associated family have 
established statelets and armies before. The Afghan Taliban had both in 
the 1990s. Al-Shabaab had much more constrained versions in Somalia 
after 2009. Al-Qaeda in the Arabian Peninsula briefly ruled parts of 
Abyan and Shabwah Provinces in Yemen, although its rule and its 
conventional military capabilities proved too tenuous to hold. None of 
these situations were remotely as dangerous to the United States as the 
Islamic State is today.
    The Afghan Taliban ruled Afghanistan, to be sure, a fact that has 
made fighting its insurgency more difficult. But it was not an al-Qaeda 
franchise and did not espouse or pursue goals beyond Afghanistan. The 
country it ruled, moreover, was a war-shattered, poverty-stricken land 
that offered little in the way of advanced resources, or even basic 
resources, for that matter. Al-Shabaab was an al-Qaeda affiliate 
(although a secret one until 2012), but it also ruled one of the 
poorest regions of the world and, at that, its rule was heavily 
contested. Iraq is an advanced, urban society with a highly literate 
and technically-educated population, vast natural resources, and 
excellent infrastructure, even after many years of war. And the Islamic 
State has already demonstrated that its aims transcend Iraq and even 
Syria. It has set its immediate sights on Jordan and Lebanon and 
threatened Iran and us. The danger is unprecedented.
    Recognizing the danger is not the same as seeing a solution, 
however. The IS was able to advance rapidly because hollowed-out and 
demoralized Iraqi Security Forces (ISF) in the north collapsed. Its 
advance was halted in large part because of the mobilization of 
Iranian-backed Shi'a militias and an armed populace. Even so, Iran has 
had to deploy probably hundreds of members of its own Islamic 
Revolutionary Guards Corps (IRGC), the commander of its Quds Force, 
Qassem Soleimani, and elements of the IRGC Air Force as well to stave 
off the Islamic State's attacks. The situation remains tenuous and the 
security of Baghdad is by no means as certain as many appear to 
believe. The Islamic State is not 10 feet tall, but neither is it 
negligible.
    The Iranian presence and obvious fear of the IS has led some 
Americans to muse on the feasibility of either letting the Iranians 
fight this fight for us or even actively cooperating with Tehran 
against a common enemy. This superficially plausible strategy will not 
survive contact with the reality that the Iranian leadership sees the 
IS as an American-created and--supported tool for retaining U.S. 
influence in the region having abandoned Iraq and Afghanistan and lost 
in Syria. Supreme Leader Ayatollah Ali Khamenei and his closest 
associates have categorically rejected cooperation with the United 
States in Iraq--even in the midst of the nuclear negotiations when 
friendly overtures might have been expected--and ceaselessly repeat the 
mantra that the United States is backing the Islamic State.
    Even if we could somehow persuade Khamenei to work with us in Iraq, 
the results would not be satisfactory. Iranian rhetoric is pan-Islamic, 
but its tools and techniques are narrowly sectarian. Khamenei is now 
backing Iraqi Prime Minister Nuri al Maliki for a third term, despite 
the insistence of the United States and all but the most sectarian 
Iraqi actors that he step aside. The Shi'a militias that are Iran's 
primary action arm in Iran also conduct sectarian killings that fan the 
flames of Sunni resentment and are important elements of the Islamic 
State's recruitment efforts. Iranian involvement in Iraq will make the 
situation worse, not better, and rapidly.
    The prospect of sending American ground forces back into Iraq is 
distasteful, to say the least. Some have argued for a sort-of expanded 
drone campaign (expanded from nothing, by the way, since the United 
States had not been targeting al-Qaeda in Iraq or Syria at all before 
the fall of Mosul) or direct air support to Iraqi forces instead. This 
approach will fail. To begin with, air campaigns alone have never done 
more than disrupt terrorist organizations. Even the extremely 
aggressive drone program that decimated al-Qaeda in Pakistan was unable 
to destroy the group. But the IS is not a terrorist organization 
anymore. It is a small state and it has a small army. Targeted strikes 
will have even less effect on it, and they are likely to backfire.
    The Iraqi Security Forces (to say nothing of Bashar al Assad's 
Syrian troops) have become sectarian. Iraqi social media refers to them 
as ``Jaish al Maliki,'' Maliki's army, simultaneously dismissing the 
notion that they are Iraqi forces and equating them with the Jaish al 
Mahdi, the sectarian and Iranian-backed Shi'a militia formed by Moqtada 
al Sadr. If the United States simply provides air support to the ISF we 
will be seen as taking Maliki's (and Iran's) side against the Sunni. It 
is far from clear, moreover, that the ISF could retake the territories 
it has lost even with U.S. air support and without U.S. support on the 
ground. The United States had an extremely hard time, we should 
remember, driving al-Qaeda in Iraq from Baghdad and Mosul with 150,000 
troops on the ground. The Iraqis will find it harder, not easier, 
because the ISF is regarded with such suspicion by many Sunni.
    We may well face a simple and extremely unpalatable choice: Send at 
least some U.S. ground forces back to Iraq or watch the consolidation 
of the first-ever effective al-Qaeda state and army. There is no 
guarantee at all that sending U.S. forces back would eliminate the 
threat. Neither is there any reason for confidence that an al-Qaeda 
state in Iraq and Syria will not launch a campaign against the U.S. 
homeland and interests abroad.
    Some will no doubt argue that the wisest course is to tend our own 
garden and focus on our own defenses rather than trying to intervene in 
an insanely complicated struggle. The trouble is that we are rushing to 
dismantle our defenses and make ourselves more vulnerable to the threat 
even as it grows exponentially. We are in the process of gutting our 
military in the name of an austerity that has not affected the parts of 
the Government that actually account for the massive increases in U.S. 
spending projected over the coming years. And we are dismantling our 
intelligence apparatus in the name of protecting privacy and civil 
liberty.
    The defense of American civil liberties, including privacy, is of 
paramount importance. It can never be ignored or simply pushed aside in 
the interests of expediency. It must be balanced, however, against the 
need to defend American lives and homes, which is the first 
responsibility of Government. We are not currently striking that 
balance properly. We have allowed highly colored and selective leaks to 
instill fear in our hearts about what our intelligence community is 
doing, while ignoring the very real external threats that community is 
actually focused on watching.
    There is no easy solution to the dilemmas posed here and I will not 
offer any. But the mandate of this committee requires it to evaluate 
all of the threats objectively and unemotionally and come to considered 
conclusions about how to strike the right balance. That evaluation must 
proceed, however, from an accurate and clear-eyed assessment of the 
actual threat. That threat is large and growing while our ability to 
defend ourselves is shrinking. We must reverse both trends, lest we 
face attacks in the future that may well change our society 
fundamentally. We can start by restoring defense cuts and re-
considering the rush to outlaw specific intelligence programs whose 
merits cannot be debated publicly. This committee should, in fact, take 
the lead in developing and proposing expansions in U.S. intelligence 
capabilities that are coherent with the protection of civil liberties 
and privacy that is so vital to our democracy.
    The challenges we face are great, but we must avoid taking counsel 
of our fears--fears of the enemy, fears of an unchecked government, 
fears of overseas involvement, or simply fears of the complexity of the 
problem. There is no certainty in acting, but there is no safety in 
passivity. I thank the committee for the opportunity to consider these 
challenges at this important moment in history.

    Mr. King. Thank you, Dr. Kagan.
    Robin Simcox is a research fellow at the Henry Jackson 
Society in London, a bipartisan British-based think tank. His 
work focuses on terrorism and national security, specifically 
al-Qaeda, al-Qaeda affiliates, and terrorism trends. Prior to 
joining the society, Mr. Simcox was a research fellow at the 
Center for Social Cohesion, a think tank studying extremism and 
terrorism in the United Kingdom. Mr. Simcox testified 
previously before the subcommittee on the same issue. I guess 
that was about 15 months ago.
    I want to thank for returning and thank you for your 
testimony. You are recognized.

 STATEMENT OF ROBIN SIMCOX, RESEARCH FELLOW, THE HENRY JACKSON 
                            SOCIETY

    Mr. Simcox. Chairman King, Ranking Member Higgins, Members 
of the subcommittee, thank you for inviting me here today.
    In recent years, the United States and its allies have 
faced threats emanating from terrorist safe havens in countries 
such as Afghanistan, Pakistan, and Yemen. The most recent areas 
of concern to have developed are in Iraq and Syria.
    In the short term, the greatest danger to emerge from these 
safe havens is the Islamic State of Iraq and al-Sham, ISIS, and 
also Westerners returning to their homeland having fought in 
Iraq and Syria.
    ISIS controls a stretch of territory the size of Jordan. It 
has acquired recruits, weapons, and finances to the extent 
there is now more of a terrorist army than a terrorist group. 
Over the last decade, ISIS and its precursor groups have 
targeted not just Iraq, but Jordan, Lebanon, and Syria. It has 
also threatened Turkey. ISIS has succeeded in establishing a 
base in the Levant from which to expand its influence 
throughout the region.
    Iraq fatigue in Washington and in London is significant. 
There will be a temptation to dismiss this as sectarian 
bloodletting or a largely irrelevant civil war. This temptation 
absolutely has to be avoided.
    The danger posed by ISIS is real, enduring, and not limited 
to the Middle East. It has gone largely unnoticed that it has 
also been connected to a series of attacks in Europe over the 
last decade. This includes a June 2007 attack against targets 
in the United Kingdom, a suicide bombing in Sweden in 2010, and 
most recently the May 2014 shootings at the Jewish Museum in 
Brussels. This is not a group obsessed with only local 
sectarian concerns.
    ISIS is now likely to attract fresh recruits, including 
those from the West, to its safe havens in Iraq, where they can 
receive training. Earlier this year, Abu Bakr al-Baghdadi, the 
supposed new caliph in ISIS, warned the United States that 
``soon we will be in direct confrontation.'' I would suggest we 
take him at his word.
    However, the threat the West faces from terrorism today is 
obviously multi-pronged. An area of great concern to 
intelligence agencies is not just the dangers posed by 
terrorist groups operating in Iraq and Syria, but those 
returning to the West having fought there. I will focus 
specifically on the British angle.
    It is thought that between 400 to 500 Brits have traveled 
to fight in the Syrian conflict, a higher number than in 
Afghanistan or in Iraq. Those fighters who return to the United 
Kingdom will likely do so battle-hardened, well-trained, and 
exposed to extremist ideology.
    Not every returning fighter is going to try and aspire to 
carry out attacks domestically. Yet according to Henry Jackson 
Society Research, almost half of those who had committed al-
Qaeda-related offenses in the United States had received 
terrorist training abroad. In the United Kingdom, it was over a 
quarter.
    The United Kingdom has taken a tough stance on Syria-
related offenses. Already in the last 18 months, there have 
been 65 Syria-related terrorism arrests. The first successful 
conviction occurred in May 2014, and others have already 
followed. This is a welcome change. Previously, not a single 
individual who fought in any other jihadist conflict abroad had 
been convicted for doing so in a British court.
    The U.K. government has also stepped up stripping dual-
national fighters of their British citizenship. This power was 
used 20 times last year, a significant increase on previous 
years. However, the United Kingdom's approach is not only based 
on tough measures against those who have already traveled.
    Channel, the home office's de-radicalization program, is 
one alternative. Over 500 terror suspects have already been 
placed through this scheme, and this number will only grow as 
the fallout from Syria and Iraq continues. The police have also 
launched a national campaign of those who are concerned about 
their relatives traveling abroad, encouraging them to seek help 
from the authorities if so, with a particular focus being 
placed on women in these families.
    Another approach to consider is one that has been launched 
in Belgium, where authorities discovered that some of those who 
had joined the rebels in Syria were still receiving social 
security benefits. It subsequently stopped these payments. This 
could act as an effective deterrent. If an aspiring fighter 
knows that his departure would lead to his family being 
evicted, for example, that may cause him to reconsider his 
options.
    The United Kingdom and the United States face a differing 
level of threats from returnee fighters. The United States has 
yet to see the numbers travel that the United Kingdom has, 
although this probably has just as much to do with geographical 
proximity as it does ideological intent, yet I believe the 
solutions to be broadly similar.
    Prosecution of terrorism-related activity when possible, 
monitoring those deemed to be most dangerous by domestic 
security agencies, coordinating our de-radicalization efforts, 
potentially removing citizenship and social security benefits. 
Ultimately we need to show an unflinching determination to face 
down the multitude of threats to the Western homeland.
    Thank you for listening, and I am happy to try and answer 
any questions you may have.
    [The prepared statement of Mr. Simcox follows:]
                   Prepared Statement of Robin Simcox
                             July 24, 2014
    In recent years, the United States and its allies have faced 
threats emanating from terrorist safe havens in countries such as 
Afghanistan, Pakistan, and Yemen. The most recent areas of concern to 
have developed are in Iraq and Syria. In the short term, the greatest 
danger to emerge from these safe havens is the Islamic State of Iraq 
and al-Sham (ISIS, and formerly known as the Islamic State of Iraq, or 
ISI, and al-Qaeda in Iraq) and Westerners returning to their homeland 
having fought in Iraq and Syria. Formulating effective policies to 
counter this threat is now a priority for the United States and its 
allies.
                                  isis
    The danger ISIS poses to the West is becoming increasingly clear, 
highlighted by General David Petraeus, European Union counterterrorism 
coordinator Gilles de Kerchove, and British Prime Minister David 
Cameron in recent weeks.\1\ These concerns are understandable. ISIS now 
controls a stretch of territory the size of Jordan and has declared an 
Islamic caliphate, acquiring recruits, weapons, and money to the extent 
that it is now more of a terrorist army than a terrorist group.
---------------------------------------------------------------------------
    \1\ ``ISIS' Western Ambitions'', Foreign Affairs, 30 June 2014, 
available at http://www.foreignaffairs.com/articles/141611/robin-
simcox/isis-western-ambitions.
---------------------------------------------------------------------------
    ISIS has succeeded in establishing a base in the Levant from which 
to expand its influence throughout the region. In a recently-released 
ISIS video, a British jihadist proclaimed that ISIS ``understand no 
borders'' and will fight ``wherever our sheikh wants to send us.'' He 
specifically cites Iraq, Jordan, Lebanon, and Syria as targets.\2\ All 
of these countries have been targeted on multiple occasions for 
terrorist attack by ISIS and its precursor organisations in the last 
decade.
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    Yet the danger posed by ISIS is not limited to the Middle East. 
ISIS and its precursor groups have also been connected to a series of 
attacks in Europe over the last decade.
  <bullet> The perpetrators of a June 2007 attack against targets in 
        London and Glasgow, Scotland--operations which consisted of a 
        car bombing attack on Glasgow Airport and car bombs in London's 
        West End--had the telephone numbers of ISI members on their 
        cell phones. At the time, counterterrorism officials called the 
        Glasgow and London attacks ``the closest collaboration'' 
        between ISI and terrorists outside the Middle East to date.
  <bullet> In 2010, a captured senior ISI operative admitted to Iraqi 
        forces that ISI was preparing to carry out an attack in the 
        West at the end of the year. Later that year, Taimour 
        Abdulwahab al-Abdaly, an Iraqi-born militant who was thought to 
        have trained with ISI in Mosul, carried out a suicide attack in 
        Stockholm, Sweden. ISI praised this attack and in an audio 
        message released after his death, al-Abdaly cited the Swedish 
        artist Lars Vilks' insulting cartoons of Islam's Prophet 
        Mohammed as a motivation for his act. ISI had previously 
        offered $150,000 to anyone who ``slaughtered'' Vilks.
  <bullet> In June 2013, the Iraqi defense ministry said it had 
        arrested members of a cell in Baghdad that had been attempting 
        to manufacture chemical weapons to smuggle into Canada, the 
        United States, and Europe.
  <bullet> In May 2014, Mehdi Nemmouche, a French citizen thought to 
        have joined ISIS in Syria, shot and killed three people at the 
        Jewish Museum in Brussels. His gun was wrapped in an ISIS 
        flag.\3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    While it is not known whether ISIS and its precursor groups 
directed or merely inspired these plots, it certainly appears connected 
to them. Therefore, ISIS is not just a local threat. Over the last 
decade, it has carried out attacks in four Middle Eastern countries and 
been connected to three others in Europe; offered financial reward for 
the assassination of Europeans; and allegedly planned to smuggle 
chemical weapons into the West. This is not the behaviour of a group 
obsessed with local, sectarian concerns.
    ``Iraq fatigue'' in Washington and London is significant. There is 
a temptation towards isolationism: To dismiss this as sectarian 
bloodletting or a complex civil war which has no relevance to 
international security. This temptation must be avoided. Following its 
recent successes, ISIS is now likely to attract fresh recruits--
including those from the West--to its safe haven in Iraq, where they 
can receive training and attempt to carry out terrorist attacks against 
the Western homeland.
    Earlier this year, Abu Bakr al-Baghdadi, the supposed new caliph, 
warned the United States that, ``soon we'll be in direct 
confrontation'' and to ``watch out for us, for we are with you, 
watching''.\4\ This warning should not be dismissed lightly.
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
                           returning fighters
    However, the threat the West faces from terrorism today is multi-
pronged. An area of great concern to intelligence agencies is that of 
the dangers posed by those returning from fighting jihad in Syria.
    The geographical proximity of Turkey to Syria has made accessing 
this conflict zone from Europe easier than past jihadist fronts. One 
analysis has concluded that as many as 2,000 Europeans have travelled 
to fight in Syria.\5\
---------------------------------------------------------------------------
    \5\ ``Up to 11,000 foreign fighters in Syria; steep rise among 
Western Europeans'', International Centre for the Study of 
Radicalisation, 17 December 2013, available at http://icsr.info/2013/
12/icsr-insight-11000-foreign-fighters-syria-steep-rise-among-western-
europeans/.
---------------------------------------------------------------------------
    Focusing specifically on the British angle, it is thought that 
between 400-500 Brits have done so.\6\ This is a higher number than 
with the jihads in Afghanistan or Iraq near the beginning of the 
century.\7\ Charles Farr, Britain's top counterterrorism official, 
stated this year that Syria was ``different from any other counter-
terrorism challenge that [the United Kingdom] have faced since 9/11--
because of the number of terrorist groups now engaged in the fighting, 
their size and scale, the number of people from this country who are 
joining them, ease of travel, availability of weapons and the intensity 
of the conflict''.\8\
---------------------------------------------------------------------------
    \6\ ``Iraq and Ending Sexual Violence in Conflict'', House of 
Commons, 16 June 2014, available at http://
www.publications.parliament.uk/pa/cm201415/cmhansrd/cm140616/debtext/
140- 6160001.htm#14061619000710; ``Counter-terror cop: 500 Brits 
fighting in Syria and Iraq'', ITV, 21 June 2014, available at http://
www.itv.com/news/update/2014-06-21/counter-terror-cop-500-brits-
fighting-in-syria-and-iraq/.
    \7\ ``Europeans are flocking to the war in Syria. What happens when 
they come home?'', Washington Post, 29 January 2014, available at 
http://www.washingtonpost.com/world/europe/europeans-are-flocking-to-
the-war-in-syria-what-happens-when-they-come-home/2014/01/29/772f56d0-
88f6-11e3-833c-33098f9e5267_story.html?hpid=z3.
    \8\ ``Syria extremism is unlike any threat UK has seen since 9/11, 
security chief warns'', Evening Standard, 25 February 2014, available 
at http://www.standard.co.uk/news/uk/exclusive-syria-extremism-is-
unlike-any-threat-uk-has-seen-since-911-security-chief-warns-
9151894.html.
---------------------------------------------------------------------------
    Those fighters who return to the United Kingdom will likely do so 
battle-hardened, well-trained, and exposed to extremist ideology. 
Richard Walton, speaking at the time as the head of the London 
Metropolitan Police's counter-terrorism unit, has described an attack 
in the United Kingdom by a fighter returning from Syria as ``almost 
inevitable''.\9\
---------------------------------------------------------------------------
    \9\ ``Anti-terrorism chief warns of British girls inspired by 
Jihad'', Evening Standard, 23 January 2014, available at http://
www.standard.co.uk/news/crime/exclusive-antiterrorism-chief-warns-of-
british-girls-inspired-by-jihad-9080110.html.
---------------------------------------------------------------------------
    It is unlikely that every returning fighter is going to be a 
national security threat and aspire to carry out attacks domestically. 
Yet according to Henry Jackson Society research, almost half of those 
who had committed al-Qaeda-related offenses in the United States had 
received terrorist training. Almost 1 in 5 had combat experience 
abroad.\10\ In the United Kingdom, over a quarter of those who 
committed Islamism-related offenses had received training abroad.\11\
---------------------------------------------------------------------------
    \10\ Robin Simcox & Emily Dyer, Al-Qaeda in the United States: A 
Complete Analysis of Terrorism Offenses (Henry Jackson Society, 
February 2013).
    \11\ Robin Simcox, Hannah Stuart, Houriya Ahmed & Douglas Murray, 
Islamist Terrorism: The British Connections (Henry Jackson Society, 
July 2011).
---------------------------------------------------------------------------
    To add to these security concerns, there have been recent reports 
that bomb-makers in Yemen are co-ordinating their efforts with 
terrorists in Syria in order to construct undetectable explosives 
targeting Western aviation. This led to a new round of security 
measures across airports targeting cell phones and other electronic 
devices. Attorney General Eric Holder recently stated these new threats 
were something he found ``more frightening'' than anything else he'd 
seen in his time in office yet.\12\ This is quite an admission when 
considering some of al-Qaeda in the Arabian Peninsula's aspirational 
and actual attempts to target the United States in recent years 
(including bombs concealed in operatives' underwear, in printer toner 
cartridges or even surgically implanted; ricin and cyanide plots; and 
poisoning Western water and food supplies).\13\
---------------------------------------------------------------------------
    \12\ ``Latest Syria Threat `More Frightening Than Anything' Else, 
Holder Says'', ABC News, 13 July 2014, available at http://
abcnews.go.com/ThisWeek/latest-syria-threat-frightening-holder/
story?id=24538221.
    \13\ ``Terror Attempt Seen as Man Tries to Ignite Device on Jet'', 
New York Times, 25 December 2009, available at http://www.nytimes.com/
2009/12/26/us/26plane.html?_r=0; ``Cargo plane bomb plot: ink cartridge 
bomb `timed to blow up over US' '', The Telegraph, 10 November 2010, 
available at http://www.telegraph.co.uk/news/uknews/terrorism-in-the-
uk/8124226/Cargo-plane-bomb-plot-ink-cartridge-bomb-timed-to-blow-up-
over-US.html; ``Al-Qaeda Yemen plane bomb plot foiled by `insider' '', 
BBC News, 8 May 2012, available at http://www.bbc.co.uk/news/world-us-
canada-17994493; ``Al Qaeda's Body Bombs: Al-Asiri's Next Threat'', 
Newsweek, 14 May 2012, available at http://www.newsweek.com/al-qaedas-
body-bombs-al-asiris-next-threat-65057; Daniel Klaidman, Kill or 
Capture: The War on Terror and the Soul of the Obama Presidency (HMH), 
p. 216.
---------------------------------------------------------------------------
                  measures taken by the united kingdom
    Attorney General Holder also recently spoke about the need for 
European nations to take a more pre-emptive approach in preventing its 
citizens travelling to Iraq or Syria in the first place, including 
undercover investigations and prosecuting those for preparatory acts of 
terrorism. In the United States, the material support law--which 
covered almost a quarter of all charges used in al-Qaeda related 
offenses in the United States\14\--is a useful piece of legislation for 
this type of crime. However, similar legislation does not exist in all 
countries that suffer from a severe terrorist threat. For example, it 
took France until 2012 to bring in a new statute that made ``criminal 
association with the intent to commit terrorist acts'' 
prosecutable.\15\
---------------------------------------------------------------------------
    \14\ Simcox & Dyer, Al-Qaeda in the United States (Henry Jackson 
Society, 2013).
    \15\ ``Attorney General Holder Urges International Effort to 
Confront Threat of Syrian Foreign Fighters'', United States Department 
of Justice, 8 July 2014, available at http://www.justice.gov/opa/pr/
2014/July/14-ag-704.html.
---------------------------------------------------------------------------
    The United Kingdom has taken a tough stance on Syria-related 
offences. In the last 18 months there have been 65 Syrian-related 
arrests in the United Kingdom.\16\ Some of these cases--such as that of 
former Guantanamo Bay detainee Moazzam Begg, who has been charged with 
providing terrorist training in Syria and raised funds to aid terrorist 
causes there\17\--are now beginning to work their way through the 
British court system. The first conviction of a British citizen 
relating to Syria-related terrorism offences occurred in May 2014 and 
others have already followed.\18\
---------------------------------------------------------------------------
    \16\ ``UK will feel fallout of war in Syria `for years to come', 
warns top Met officer'', Guardian, 22 June 2014, available at http://
www.theguardian.com/world/2014/jun/22/uk-syria-islamic-extremism-isis-
muthana-cressida-dick.
    \17\ ``Ex-Guantanamo Bay detainee Moazzam Begg charged with terror 
offences'', The Telegraph, 1 March 2014, available at http://
www.telegraph.co.uk/news/uknews/terrorism-in-the-uk/10669848/Ex-
Guantanamo-Bay-detainee-Moazzam-Begg-charged-with-terror-offences.html.
    \18\ ``Syria conflict: First Briton convicted of terrorist 
offences'', BBC News, 20 May 2014, available at http://www.bbc.co.uk/
news/uk-27488006; ``Two British men admit to linking up with extremist 
group in Syria'', Guardian, 8 July 2014, available at http://
www.theguardian.com/world/2014/jul/08/two-british-men-admit-linking-
extremist-group-syria.
---------------------------------------------------------------------------
    This is a welcome change. Beforehand, not a single individual who 
fought in Afghanistan, Iraq, or any other jihadist conflict had been 
charged for doing so in a British court. This was largely a problem of 
political will, as well as some shortcomings in legislation. Yet this 
government has shown more determination to start prosecuting such 
offenses.
    The government has also stepped up stripping dual national fighters 
in Syria of their British citizenship. Under the British Nationality 
Act, the home secretary can deprive someone of their citizenship if it 
``is conducive to the public good'' and it does not leave them 
stateless. This power was used 20 times last year, which is a 
significant increase on previous years. While this does not only apply 
to jihadists in Syria--for example, it has also been used against those 
fighting in Somalia--one former Foreign & Commonwealth official has 
said that it is an ``open secret'' that it is being applied to the 
conflict there.\19\
---------------------------------------------------------------------------
    \19\ ``No way back for Britons who join the Syrian fight, says 
Theresa May'', Independent, 23 December 2013, available at http://
www.independent.co.uk/news/uk/politics/exclusive-no-way-back-for-
britons-who-join-the-syrian-fight-says-theresa-may-9021190.html.
---------------------------------------------------------------------------
    Another available option--although not one that has been used so 
far--is the use of Terrorism Prevention and Investigation Measures 
(TPIMs), which enable the government to place a series of restrictions 
on the movements of terror suspects they are unable to deport or 
prosecute. TPIM subjects are, for example, given a curfew, an 
electronic tag, restricted from meeting certain individuals and 
attending certain mosques. While these are not measures available to 
the United States, the need to detain those who are deemed a national 
security threat but who the state may not be able to prosecute is 
certainly a dilemma that it is familiar with (those detained at 
Guantanamo Bay being the perfect example).
    However, the United Kingdom's approach is not only based on tough 
measures against those who have already travelled. If prosecution is 
not possible, then Channel--the Home Office's de-radicalisation 
programme--is a viable alternative. Over 500 terror suspects have 
already been placed through this scheme, and this number will only grow 
as the fallout from Syria continues.\20\ The police have also launched 
a national campaign aimed at supporting the families--with a focus on 
women--of those who are concerned about their relatives travelling 
abroad, encouraging them to seek help from authorities if so.\21\
---------------------------------------------------------------------------
    \20\ ``500 terror suspects `deradicalised' by Home Office'', BBC 
News, 26 March 2013, available at http://www.bbc.co.uk/news/uk-
21940899.
    \21\ ``Police make Syria plea to UK Muslim women'', BBC News, 24 
April 2014, available at http://www.bbc.co.uk/news/uk-27131707.
---------------------------------------------------------------------------
    Another approach to consider is one that has been launched in 
Belgium and which could be considered by the West more broadly. Belgian 
authorities discovered that some of those who had joined the rebels in 
Syria were still receiving social security benefits and subsequently 
stopped these payments.\22\ This could act as an effective deterrent. 
If an aspiring fighter knows that his departure would lead to his 
family being evicted, for example, that may cause him to reconsider his 
options.
---------------------------------------------------------------------------
    \22\ ``Belgian jihadists in Syria stripped of welfare benefits'', 
France 24, 19 August 2013, available at http://www.france24.com/en/
20130819-belgian-jihadists-syria-stripped-welfare-payments-assad-
antwerp/.
---------------------------------------------------------------------------
                          the on-going threat
    The exact amount of fighters that have already returned to the 
United Kingdom is unknown. One security official claimed the number 
could be as high as 250.\23\ However, since there is ambiguity over the 
amount who have already travelled, there will inevitably be ambiguity 
over how many have returned. The former head of counterterrorism at MI-
6 has said it is ``out of the question'' to be able to monitor all 
those who have returned from fighting in Syria.\24\ The United Kingdom 
simply does not have the capacity.
---------------------------------------------------------------------------
    \23\ ``After fighting in Syria 250 British jihadis are `back in the 
UK' say intelligence officers'', Daily Mirror, 21 June 2014, available 
at http://www.mirror.co.uk/news/world-news/after-fighting-syria-250-
british-3739504.
    \24\ `` `Not possible' to monitor all UK Syria fighters'', BBC 
News, 23 June 2014, available at http://www.bbc.co.uk/news/uk-27968963.
---------------------------------------------------------------------------
    For example, in 2007, MI-5 acknowledged they were currently 
tracking 2,000 terror suspects in the United Kingdom.\25\ Assuming that 
the threat has remained reasonably consistent--a safe assumption, 
considering that Britain has either suffered from, or managed to foil, 
at least one major terrorist plot approximately every year since 9/11 
\26\--and assuming that 500 Brits have travelled to Syria, that would 
mean that Syrian returnees could take up a quarter of MI-5's casework.
---------------------------------------------------------------------------
    \25\ `` `Thousands' pose UK terror threat'', BBC News, 5 November 
2007, available at http://news.bbc.co.uk/1/hi/uk/7078712.stm.
    \26\ Simcox, Stuart, Ahmed & Murray, Islamist Terrorism (Henry 
Jackson Society, 2011).
---------------------------------------------------------------------------
    In reality, the number will not be that high yet--some fighters 
have already been killed in Syria; others have no intention of ever 
returning; some will be legally barred from returning by the 
government; while others may not assessed to be a threat to the United 
Kingdom. Yet this gives some indication of the scale of work that 
Syrian returnees could cause British security agencies.
    Furthermore, by its own admission MI-5 can only ``hit the 
crocodiles nearest the boat'' and has to ``prioritise ruthlessly''.\27\ 
This means that someone who is on the periphery of the Security 
Services' radar eventually drops off. Inevitably, the wrong decisions 
are occasionally made. Last year, Michael Adebolajo, an extremist of 
interest to MI-5 who had previously attempted to travel to Somalia but 
not regarded as posing an imminent danger, stabbed a British soldier to 
death in broad daylight on the streets of London.
---------------------------------------------------------------------------
    \27\ ``Could 7/7 Have Been Prevented? Review of the Intelligence on 
the London Terrorist Attacks on 7 July 2005'', Intelligence & Security 
Committee, HM Government, May 2009, available at https://www.gov.uk/
government/uploads/system/uploads/attachment_data/file/224542/7-
7_attacks_intelligence.pdf.
---------------------------------------------------------------------------
                            shared challenge
    The United Kingdom and the United States face a differing level of 
threat from returnee fighters. The United States is yet to see the 
numbers travel to Syria that the United Kingdom has, although this 
probably has just as much to do with the geographical proximity as it 
does ideological intent. Despite this, the solutions are broadly 
similar.
    Those who have attempted or successfully joined up with, fundraised 
for, and/or received training from terrorist groups in Iraq and Syria 
should be prosecuted. If prosecution is not possible, trained fighters 
assessed to be the most dangerous should be monitored by domestic 
security agencies. The United Kingdom can call upon Channel, its de-
radicalization programme; in the United States, the Countering Violent 
Extremism initiative is a work in progress and our governments should 
continue to co-ordinate their efforts on this work. The removal of 
citizenship and social security benefits are other potentially useful 
National security tools.
    Ultimately, we need to show an unflinching determination to face 
down the threats being posed to the West by the dangers emerging from 
this region.

    Mr. King. Thank you very much, Mr. Simcox.
    Dr. Peter Brookes is a senior fellow at the Davis Institute 
for National Security and Foreign Policy at the Heritage 
Foundation. He is serving his fourth term as a Congressionally-
appointed member of the U.S.-China Economic and Security Review 
Commission and previously served in the President George W. 
Bush administration as deputy assistant secretary for defense 
for Asian and Pacific affairs and has been commenting on these 
issues as far as I can recall ever since al-Qaeda really 
emerged on the world scene.
    So, Dr. Brookes, it is really a privilege to have you here 
today.

 STATEMENT OF PETER BROOKES, SENIOR FELLOW, NATIONAL SECURITY 
  AFFAIRS, DAVIS INSTITUTE FOR NATIONAL SECURITY AND FOREIGN 
                POLICY, THE HERITAGE FOUNDATION

    Mr. Brookes. Thank you. Thank you very much. Thank you, Mr. 
Chairman, Members of the committee. Thank you for the 
opportunity to share my views today. I want to commend you, the 
committee and your staff, for highlighting this issue in this 
public setting. It comes none too soon, in my opinion. Of 
course, today the views I express today are my own.
    I want to make three fundamental points. It is my view that 
Islamist militancy is on the march. I believe that we are 
facing increasing threats to the homeland as a result. I have 
concerns about current U.S. policy for dealing with it.
    I never would have thought that 13 years after the 9/11 
tragedy that we would still being dealing with the threat of 
Islamist terrorism, especially that associated with al-Qaeda, 
at such an elevated level. The al-Qaeda threat has proliferated 
significantly in recent years in my judgment.
    Syria is a good example, as others have already mentioned, 
and should be of significant concern, considering the estimated 
number of violent jihadists that have gathered there to oppose 
the Bashar Assad regime. Iraq is also deeply afflicted with 
terrorism, especially the resurgence of al-Qaeda in Iraq off-
shoots.
    Of course, perhaps the most troubling development is the 
rise of the Islamic State in Syria and Iraq, ISIS, which has 
been capturing and perhaps holding a swath of significant 
territory that spans both Iraq and Syria. Elsewhere in the 
Middle East, al-Qaeda in the Arabian Peninsula may be the most 
dangerous al-Qaeda affiliate today. In South Asia, the Taliban 
and Haqqani Network violence is up in Afghanistan as the number 
of U.S. and foreign forces, the coalition forces, draws down.
    In Africa, terrorists and violent extremists are thriving, 
as well. In Libya, the situation remains chaotic 3 years after 
the U.S.-NATO-led operation. Of course, Libya was the location 
of the deadly September 11, 2012, attack on our diplomatic 
facilities in Benghazi. Algeria is afflicted by al-Qaeda in the 
Islamic Maghreb. AQIM is also active in nearby Mali, where 
violence is on the upswing after a French intervention slowed 
the terror group's advance.
    Fighting with Boko Haram, Islamist militants in Nigeria, 
has resulted in a reported death of some 2,000 people just this 
year, the tragic kidnapping of hundreds of schoolgirls aside. 
In Somalia and Kenya, al-Shabaab--noted for its brazen Westgate 
Mall attack in 2013--is also gaining ground. In general, 
lawless, ungoverned, 
and/or chaotic places remain a significant counterterrorism 
problem.
    What does this militant Islamist movement mean? In my 
opinion, it signifies that we are facing an increasing threat 
not only to U.S. interests overseas, but to the homeland. While 
not all of these al-Qaeda groups are directly targeting the 
U.S. homeland security currently, we should not embrace the 
notion that this view will not change in the future. Their 
objectives will not necessarily remain local or regional.
    We should not assume that any seemingly overseas al-Qaeda 
threat will stay that way and will not evolve into a direct 
threat to the U.S. homeland. Indeed, intent can change quickly 
and may not be discovered by intelligence before it is too 
late.
    While each terror group is unique, hostility towards the 
United States in my view is a common characteristic. While I 
understand and appreciate the hard work being done by 
intelligence, law enforcement, the military, and others in 
battling violent extremists and protecting the American 
homeland, I have concerns about current U.S. policy.
    First, the rhetoric used by the Obama administration I 
believe has been misleading. Over time, the White House, 
including the President, has characterized al-Qaeda as on the 
run, on its heels, and decimated, and so forth.
    Second, I am also troubled by other National security 
decisions. For instance, I believe the decision to withdraw 
from Iraq without provision of follow-on forces directly 
contributed to, along with other factors, the dire situation 
that exists there today. I believe that the security vacuum 
that will be left by the drawdown of U.S. forces in Afghanistan 
in the coming years, which could result in a total withdrawal, 
could be filled by al-Qaeda-affiliated groups over time as 
happened in Iraq.
    Third, from a practical standpoint, I believe that the 
reluctance to influence or follow through on events in the 
Middle East/North Africa, such as Libya and the Arab Spring, 
especially the events in Syria, have not served our National 
interests well. Indeed, while a direct cause and effect is 
difficult to prove, I would suggest that a case could be made 
which claims that the failure of U.S. policies in Iraq and 
Syria had a hand in the success of ISIS today, which now stands 
as a significant National security threat.
    Fourth, I am concerned that much of the world sees the 
United States in absolute--or at least relative--decline. I 
also believe that perception of American inattention, 
disinterest, or weakness in world affairs will drive policies 
and actions directed towards us, including provocations from 
militant Islamist extremists.
    Fifth, I am also worried that U.S. counterterrorism policy 
is meant more to contain than eliminate al-Qaeda threats. 
Relying too heavily on the political will of foreign 
governments and the capabilities of other nations' 
counterterror forces or militaries to battle terror groups may 
be a losing, indeed, dangerous, proposition or strategy.
    In conclusion, I would assert that parts of the world are 
aflame with Islamist militancy and that we are in the 
crosshairs. We have already weathered some 60 terrorist plots 
and/or attacks since 
9/11, according to Heritage Foundation data. This is clearly no 
time for contentment with the status quo.
    The concern is that some believe we are in a post-Osama bin 
Laden era. That is factually correct. But we are not in a post-
terrorism or post-al-Qaeda period in my judgment. Osama bin 
Laden's and al-Qaeda's inspirational Islamist ideology of 
political violence lives on. Letting down our guard at this 
time in the face of this growing Islamist extremist reality 
would be a huge mistake and a major threat to our security and 
interests both at home and abroad.
    Thank you very much.
    [The prepared statement of Mr. Brookes follows:]
                  Prepared Statement of Peter Brookes
                             July 24, 2014
    Mr. Chairman and Members of the committee: Thank you for this 
opportunity to share my views on the subject of today's hearing. I want 
to commend you, the committee, and your staff for highlighting this 
issue in this public setting. In my view, it comes none too soon.
    Before I begin my testimony, let me say that the views I express 
today are my own and should not be construed as representing the 
official position of any of the organizations with which I am 
associated.
    On the topic of today's hearing, I would like to make three 
fundamental points.
    Quite simply, it is my view that Islamist militancy is on the 
march. Second, I believe we are facing increasing threats to the 
homeland as a result. And third, I have concerns about current U.S. 
policy for dealing with it.
    Let me briefly expand on these points.
                   islamist militancy is on the move
    I never would have thought that nearly 13 years after the 9/11 
tragedy that we would still being dealing with the threat of Islamist 
terrorism, especially that associated with al-Qaeda, at such an 
elevated level.
    The al-Qaeda threat, whether by groups that have a direct 
association with al-Qaeda's core, exist as an off-shoot, or merely 
embrace its ideology, has proliferated significantly in recent years in 
my judgment.
    The increasing diversity and the intensity of the Islamist 
terrorist threat, in my mind, means we have to defend against a growing 
number of different threat vectors, making it more difficult for our 
intelligence, law enforcement, and military efforts to succeed, whether 
at home or overseas.
    We are all painfully aware of the rise of violent extremists across 
the globe. Indeed, the State Department reports that terrorist attacks 
were up more than 40 percent last year.
    Syria is a good example, and should be of significant concern, 
considering the estimated number of violent jihadists that have 
gathered there to oppose the Bashar Assad regime.
    As the committee knows, an estimated 7,000-12,000 foreign fighters 
from some 70-80 countries have reportedly gathered in Syria, perhaps 
constituting what experts believe is the largest contingent of violent 
extremists in any one place at any one time, including in pre-9/11 
Afghanistan.
    Iraq is also deeply afflicted with terrorism, especially the 
resurgence of al-Qaeda in Iraq off-shoots, which seemed to have been 
almost extinguished by the end of the U.S. surge in Iraq. Last year, 
Iraq suffered some 5,000-9,000 casualties as a result of terrorist and 
sectarian violence, according to various sources.
    Of course, perhaps, the most troubling development is the rise of 
the Islamic State in Syria and Iraq (ISIS) which has set about 
capturing--and perhaps holding--a swath of significant territory that 
spans both Iraq and Syria.
    Within this territory, ISIS has declared a caliphate, which not 
only threatens the regimes in Baghdad and Damascus, but which may prove 
over time to be a safe haven for terrorist planning, training, and 
operations beyond Iraq and Syria.
    This newest caliphate is likely to resonate with Islamists on a 
number of levels around the globe. The allure of a new Islamist state 
may lead to more recruits, funding, and alliances. Moreover, ISIS' 
early success may encourage others to undertake the same thing 
elsewhere.
    Indeed, even prior to the establishment of the ``Islamic State,'' 
there were reports of the development of camps for not only training 
fighters for opposing the Syrian and Iraqi regimes, but for training 
foreign fighters to return to their native lands, especially Europe and 
the United States, to undertake terror attacks there.
    Of course, the problem is not limited to Iraq and Syria.
    Elsewhere in the Middle East, al-Qaeda in the Arabian Peninsula 
(AQAP), which is resident in Yemen, may be the most dangerous al-Qaeda 
affiliate today. It has held territory in Southern Yemen and its bomb-
making prowess is well-known based on a number of spectacular plots by 
its innovative explosives expert, Ibrahim al Asiri.
    In South Asia, Taliban and Haqqani Network violence is up in 
Afghanistan as the number of U.S. and foreign forces draws down, 
according to news outlets. These terror groups have historically found 
safe haven in neighboring Pakistan, which has severely impacted U.S. 
and Coalition counterinsurgency and terror operations in Afghanistan.
    In Africa, terrorists and violent extremists are thriving as well. 
In Libya, the situation remains chaotic 3 years after the U.S.-NATO 
operation led to the demise of Libyan strongman Moammar Qaddafi. Libyan 
militias, including al-Qaeda-associated groups like Ansar al Sharia, 
continue to threaten any semblance of stability.
    Of course, Libya was the location of the deadly September 11, 2012 
attack on our diplomatic facilities in Benghazi.
    Algeria is afflicted by al-Qaeda in the Islamic Maghreb (AQIM); it 
has been linked to recent plots in France on the Eiffel Tower, Louvre, 
and a nuclear power plant, according to news accounts.
    AQIM is also active in nearby Mali, where violence is on the up-
swing after a French intervention slowed the terror group's advance. 
Moreover, press reports indicate that al-Qaeda-linked militants in Mali 
may be working with Nigeria's Boko Haram, a terror group causing 
increasing alarm.
    News accounts indicate that fighting with Boko Haram Islamist 
militants in Nigeria has resulted in the death of some 2,000 people 
this year, the tragic kidnapping of hundreds of school girls aside. It 
also reportedly operates in Cameroon and Niger.
    Across the continent in Somalia and Kenya, al-Shabab--noted for its 
brazen Westgate Mall attack in 2013--is gaining ground. The terror 
group also seems to be a significant draw for prospective militants 
from the United States, according to some research.
    Indeed, some analysts believed that al-Shabab may have drawn or 
recruited more Americans than any other terror group, but it has now 
likely been outpaced by a surge to Syria and Iraq. Moreover, some 
assert al-Shabab is cooperating and coordinating with Boko Haram, 
further expanding the terror network on the continent.
    In general, lawless, ungoverned, and or chaotic places remain a 
significant counterterrorism problem.
                   increasing threats to the homeland
    What does this militant Islamist movement mean? In my opinion, it 
signifies that we are facing an increasing threat not only to U.S. 
interests overseas, but to the homeland.
    I do not have to tell the committee about the reports of nearly a 
hundred Americans and as many as 3,000 Europeans that have traveled to 
Syria--and perhaps now Iraq--to fight in the Syrian (and perhaps now 
Iraqi) civil war(s).
    We must assume that based on open-source reporting that some of 
these Americans and Europeans will be recruited and trained in the 
terrorist dark arts while in Iraq and Syria with the intention of 
returning to their native countries to commit terror, if reports are 
accurate.
    Recent violence and plots in places like Britain, Belgium, and 
Spain that are related to Syria means that the threat is not a 
prospective one, but one that is here and now.
    Specifically, the recent reports of a possible terror plot 
involving explosive cell phones and or electronic devices that might be 
targeting U.S.-bound airliners out of Europe is of great concern--and 
may arguably represent the most imminent terror threat to the U.S. 
homeland today.
    Even more troubling are the reports that this plot involved a 
synergistic effort between al-Qaeda operatives in Syria/Iraq and AQAP 
bomb-makers. This sort of transnational terrorist teamwork is very 
disconcerting.
    But we should not be surprised.
    Al-Qaeda, including Osama bin Laden, has long valued zealous 
religious converts, recruiting operatives in place, including via the 
internet, and travelers with passports that may be in or enter a target 
country with limited scrutiny to perform terrorist acts.
    While not all of these al-Qaeda groups are directly targeting the 
U.S. homeland currently, we should not embrace the notion that this 
view will not change in the future; their objectives will not 
necessarily remain local or regional.
    In my view, these terror groups, whose goals may seem local or 
regional at this time, may have fundamental needs that might need to be 
satisfied first (e.g., holding territory for planning, training, and 
operating; securing funding; and finding recruits) before looking at 
expanding their operations afield such as toward the United States.
    Furthermore, from a strategic perspective, these terror groups may 
not want to encourage or give reason for opposition from the United 
States at this time.
    The point here being is that we should not assume that any 
seemingly overseas al-Qaeda threat will stay that way and not evolve 
into a direct threat to the U.S. homeland. Indeed, intent can change 
quickly and may not be discovered by intelligence before it is too 
late.
    While each terror group is unique, hostility toward the United 
States is a common characteristic, in my opinion.
                          u.s. policy concerns
    While I understand and appreciate the hard work being done by 
intelligence, law enforcement, the military, and others in battling 
violent extremists and protecting the American homeland, I have 
concerns about current U.S. policy.
    First, the rhetoric used by the Obama administration has been 
misleading, in my view. Over time, the White House, including the 
President, has characterized al-Qaeda as ``on the run,'' ``on its 
heels,'' and ``decimated,'' and so forth.
    Suggesting such, especially as concerns al-Qaeda writ large, is 
unfortunately disingenuous. While the White House occasionally 
specified that it was referring to ``al-Qaeda core'' (essentially the 
perpetrators of the 9/11 attacks in Pakistan and Afghanistan) when it 
spoke of the terror group's supposedly diminished status, that was not 
always the case.
    Indeed, I would suggest that the White House was attempting to 
create a narrative on its handling of National security, specifically 
al-Qaeda, that was arguably overly optimistic. Worse, it may have given 
the American public--and others--the impression that al-Qaeda was in 
its last throes.
    The take down of Osama bin Laden supported that narrative.
    The problem is that, yes, Osama bin Laden was dead, but al-Qaeda 
was still very much alive. I do not believe that this reality was 
conveyed accurately or adequately to the American people by the 
administration when it should have been part of our National security 
dialogue and debate.
    I believe that the early, public Benghazi attack assessments, such 
as references to a provocative video, were also driven by the White 
House's chosen, perhaps politically-driven, National security 
narrative.
    Second, I am also troubled by other National security decisions. 
For instance, I believe the decision to withdraw from Iraq without the 
provision of follow-on forces directly contributed to, along with other 
factors, the dire situation that exists there today.
    In addition, I believe that the security vacuum that will be left 
by the drawdown of U.S. forces in Afghanistan in the coming years, 
which could result in a total withdrawal, could be filled by al-Qaeda-
affiliated groups over time as happened in Iraq.
    Third, from a practical standpoint, I believe that a reluctance to 
influence or follow through on events in the Middle East/North Africa 
such as Libya and the Arab Spring, especially the events in Syria, has 
not served our National interests well.
    Indeed, while a direct cause and effect is difficult to prove, I 
would suggest that a case could be made which claims that the failure 
of U.S. policies in Iraq and Syria had a hand in the success of ISIS 
today which now stands as a significant National security threat.
    Fourth, I am concerned that much of the world sees the United 
States in absolute--or at least relative--decline. I also believe that 
perceptions of American inattention, disinterest, or weakness in world 
affairs will drive policies and actions directed toward us, including 
provocations from militant Islamist extremists.
    Fifth, I am also worried that U.S. counterterrorism policy is meant 
more to contain than eliminate al-Qaeda threats. In other words, we are 
containing threats in places like Syria/Iraq or Yemen, but not acting 
vigorously enough, or at all, to eliminate them.
    Relying too heavily on the political will of foreign governments 
and the capabilities of other nations' counterterror forces or 
militaries to battle terror groups may be a losing, indeed dangerous, 
strategy whether it is Iraq, Afghanistan, or Yemen.
    Specifically, I believe that we are facing increasing threats to 
our interests overseas and to the homeland as a result of our failure 
to develop effective counterterror policies, which have provided space 
for terrorists to plan, train, and operate.
                               conclusion
    I would assert that parts of the world are aflame with Islamist 
militancy--and that we are in the crosshairs. Wishing away the 
terrorist threat we face at home or abroad will not make it disappear. 
Indeed, worse, we are at risk of creating complacency at home and 
abroad about this growing threat.
    Complacency about such a challenge can be a killer. We have already 
weathered some 60 terrorist plots and or attacks since 9/11, according 
to Heritage Foundation data. This is clearly no time for contentment 
with the status quo.
    The concern is that some believe we are in a post-Osama bin Laden 
era. That is factually correct, but we are not in a post-terrorism or 
post-al-Qaeda period in my judgment. Osama bin Laden's and al-Qaeda's 
inspirational Islamist ideology of political violence lives on in 
Syria, Iraq, Yemen, Nigeria, Libya, Afghanistan, and elsewhere.
    Letting our guard down to this growing Islamist extremist reality 
would be a huge mistake--and a major threat to our security and 
interests both at home and abroad.

    Mr. King. Thank you, Dr. Brookes.
    Dr. Seth Jones, who is the director of International 
Security and Defense Policy Center at the Rand Corporation, as 
well as an adjunct professor at Johns Hopkins University School 
for Advanced International Studies. Previously, Dr. Jones 
served as the representative for the U.S. commander, U.S. 
Special Ops Command, to the assistant secretary of defense of 
special operations. Prior to that position, he served as a 
plans officer and adviser to the commanding general, U.S. 
special operations forces in Afghanistan, and specializes in 
counterinsurgency and counterterrorism, including a focus on 
Afghanistan, Pakistan, and al-Qaeda.
    In a time of heightened partisanship in Washington, 
interesting to note that you have appeared as a Republican 
witness and today as a Democratic witness before this 
committee, which says a lot about you and your perspective, and 
also hopefully something about this committee and the fact that 
we do try to deal in a bipartisan way. I think the fact that 
you have been called by both parties as ``their witness,'' 
says--you know, speaks volumes about your knowledge and your 
ability.
    So, Dr. Jones.

 STATEMENT OF SETH G. JONES, DIRECTOR, INTERNATIONAL SECURITY 
        AND DEFENSE POLICY CENTER, THE RAND CORPORATION

    Mr. Jones. Thank you very much, Chairman King, Ranking 
Member Higgins, other Members of the subcommittee, thanks for 
inviting us to testify on I think what is a very important 
subject at a very important time. I have divided my comments 
into four sections, as you will see build on each other.
    The first is to emphasize what Chairman King and Ranking 
Member Higgins noted in their opening statements, which is that 
the United States does face a--what I consider a growing threat 
from violent extremists traveling to and returning from Syria 
and other locations. According to my own estimates, the number 
of Americans is now above 100, somewhere around 125, 130 
Americans that have traveled or attempted to travel to Syria to 
assist rebel organizations.
    I do think it is important to look at the data here that 
there appear to be a wide range of motivations. Some appear to 
be interested in conducting violent jihad with al-Qaeda 
organizations or jihadist organizations like ISIS. Some appear 
to be interested in primarily fighting Shia. Some appear to be 
interested in supporting Syrian--what you might call Syrian 
nationalist groups against the Assad regime, others providing 
humanitarian assistance. So identifying the purpose of the 
individual traveling is obviously important.
    The numbers in Europe, as we heard from Mr. Simcox, are 
order of magnitude larger. I will come back to that issue in a 
moment. But as many as 2,500 potentially Sunni extremists from 
Europe have arrived in Syria between January 2012 and July 
2014. I would note also that we have seen fairly large numbers, 
in the hundreds, also return from Syria into Europe.
    Just to put this into perspective, according to data I 
have, Syria today has the largest numbers of Westerners in any 
jihadist battlefield in the modern era, larger in terms of 
Westerners than what we saw in Afghanistan during the 1980s 
against the Soviet Union, larger after the 2001 overthrow of 
the Taliban regime, larger than in Iraq, including after the 
2000 U.S. invasion, Somalia, Yemen, Libya. So I think it is 
important in that sense to put this into perspective and why we 
should focus on the subject.
    Second, the broader trends I think are important. According 
to a Rand report I recently authored and was published a few 
weeks ago, the trends here are a bit concerning. There has been 
a--according to our estimates--55 percent increase in the 
number of jihadist groups between 2010 and 2013. The largest 
number of that--percentage of that increase is in North Africa 
and in the Syria area.
    In addition, the number of jihadists themselves, not groups 
but fighters, has roughly doubled during that same time period, 
with the largest numbers of fighters operating in the Syria and 
broader Levant area. So this does appear to be a growing 
problem, and we can talk about the reasons for that in the 
discussion afterwards.
    As Dr. Brookes noted earlier, not all of these groups 
present a direct threat to the U.S. homeland. Nusra and ISIS 
and some of the groups operating in Syria and Iraq appear to be 
primarily focusing on targets inside of Syria and inside of 
Iraq, but I would say that the trends are concerning. The 
pipeline between Iraq and Europe, as well as other places, the 
United States, Australia, is growing, financing, recruitment, 
and potentially operatives, and there is always this--a concern 
about inspired individuals, not directly connected with these 
groups, but that have trained. So this trend is concerning.
    Let me conclude, then, the fourth area which is detecting 
and deterring travelers. I just want to say, I appreciate the 
efforts of U.S. intelligence, law enforcement, military, 
diplomatic efforts to focus on this problem.
    But let me highlight three issues worth considering. I have 
got a much longer list, but just want to highlight three for 
note here. One is--and this really is a European issue--again, 
the largest numbers of extremists that we have seen where there 
is a visa waiver potential are in Europe.
    Criminalizing attendance, not just training, but attendance 
at terrorist training camps overseas I would assess would 
likely deter or could deter some terrorists from traveling. The 
United Kingdom appears to be the only or one of the only 
European Union countries with such a law. The United States 
prohibits attendance at terrorist camps overseas and will 
prosecute. I think encouraging the European countries to 
criminalize attendance, not just training, would be quite 
helpful.
    Second issue is preemptive action. Norway, Netherlands, 
France are among the few European countries of the United 
Kingdom that have preemptively arrested extremists preparing to 
travel to Syria. That is before they go, but many do not--do 
not have laws on the books along those lines, so I think 
working with our European allies on ways to prevent them from 
leaving, if there is enough evidence, would be helpful. Again, 
some European countries have now passed laws.
    The last thing I will just mention is we have got to find 
ways, I think, to fix loopholes in our system. The fact that 
apparently Abu-Salah was able to travel to Syria, return to the 
United States without our awareness, and then go back and blow 
himself up in Syria does raise questions about whether we 
missed this.
    So let me conclude by saying, I think this issue is very 
important. Thank you for calling this hearing. I look forward 
to the questions.
    [The prepared statement of Mr. Jones follows:]
              Prepared Statement of Seth G. Jones \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a non-
profit research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT414.html.
---------------------------------------------------------------------------
                             July 24, 2014
    Chairman King, Ranking Member Higgins, and Members of the 
subcommittee, thank you for inviting me to testify at this hearing, 
``Jihadist Safe Havens: Efforts to Detect and Deter Terrorist Travel.''
    My argument today is straightforward: The United States faces a 
threat from violent extremists, including Americans and other 
Westerners, in safe havens in Syria and other locations. Syria today 
likely has the largest number of Westerners in any jihadist battlefield 
in the modern era, with greater numbers of Western participants than in 
past battlefields in Afghanistan (including during the 1980s anti-
Soviet war), Pakistan, Iraq (including after the 2003 U.S. invasion), 
Somalia, Yemen, and Libya.\3\ But it is important not to exaggerate the 
threat. Westerners appear to be involved in a range of activities, from 
providing humanitarian aid to fighting with al-Qaeda-affiliated groups 
like Jabhat al-Nusrah. It is unclear how many of these individuals will 
attempt to return to the United States and become involved in terrorist 
activity. Some may die in Syria, some may move to other countries 
(including other jihadist battlefields), some may focus on humanitarian 
activity, and still others may become disillusioned with extremist 
activities. In addition, other groups, such as al-Qaeda in the Arabian 
Peninsula and core al-Qaeda, likely present a more immediate threat to 
the U.S. homeland--at least today. Still, the large number of Western 
violent extremists in sanctuaries like Syria makes it particularly 
important to adopt policies and practices in the U.S. homeland and 
overseas to ensure that violent extremists are detected if they return 
to the West and, more broadly, to reduce the flow of foreign fighters 
from the West.
---------------------------------------------------------------------------
    \3\ Author estimates based on an overview of Salafi-jihadist groups 
and fighters since 1988. See, for example, Seth G. Jones, A Persistent 
Threat: The Evolution of al-Qaeda and Other Salafi Jihadists (Santa 
Monica, CA: RAND, 2014).
---------------------------------------------------------------------------
    I have divided my comments into four sections. The first provides 
an overview of the threat from sanctuaries in Syria and potentially 
Iraq. The second section provides broader context and analyzes trends 
in the number of Salafi-jihadist groups, fighters, and attacks. The 
third examines the impact of this threat on the U.S. homeland. And the 
fourth section explores measures to detect and interdict the movement 
of Western violent extremists--including Americans--and prevent them 
from conducting attacks in the West.
             the threat from sanctuaries in syria and iraq
    The United States faces a threat from violent extremists traveling 
to--and returning from--Syria and other locations. Since 2011, between 
100 and 200 Americans have traveled--or attempted to travel--to Syria 
to assist rebel organizations. There appear to be a wide range of 
motivations, such as conducting violent jihad, fighting Shi'a, 
supporting Syrian nationalist groups against the Assad regime, and 
providing humanitarian assistance. However, the problem is broader than 
just Americans. Between 1,500 and 2,500 Sunni extremists from Europe 
arrived in Syria between January 2012 and July 2014. Many have joined 
jihadist groups such as Jabhat al-Nusrah and the Islamic State of Iraq 
and al-Sham (ISIS). In turn, between 300 and 400 extremists appear to 
have left Syria for countries in Europe.\4\ There are also a growing 
number of other Westerners, including Australians, participating in 
such jihadist battlefields as Syria. With the increase in ISIS control 
of territory in Iraq, there may be a growing number of Western violent 
extremists in Iraq as well.
---------------------------------------------------------------------------
    \4\ Author interviews with senior counterterrorism and diplomatic 
officials from a dozen European countries, July 2014.
---------------------------------------------------------------------------
    These developments should cause concern in the United States. 
European travelers do not need a visa to enter the United States. This 
is generally not a problem for known violent extremists that make it 
onto European--and then American--terrorism watch lists. But it is a 
problem if terrorist fighters and supporters train in Syria without 
being detected and, consequently, without making it onto any watch 
list. U.S. and European intelligence collection capabilities are not as 
robust in Syria today as they were in Iraq and Afghanistan, but the 
number of Western violent extremists appears to be significantly 
greater.
                             broader trends
    The problem of violent extremism is broader than just Syria and 
Iraq. Current trends suggest that terrorist groups are metastasizing, 
particularly in North Africa and the Middle East. As noted in the next 
section, however, many of these groups are not a high threat to the 
United States today and are focused on local enemies.
    Figure 1 shows the number of active Salafi-jihadist groups, 
including al-Qaeda, by year since 1988. Salafi-jihadist groups can be 
distinguished by at least two main characteristics. First, these groups 
emphasize the importance of returning to a ``pure'' Islam, that of the 
Salaf, the pious ancestors. Second, Salafi-jihadist groups believe that 
violent jihad is fard `ayn (a personal religious duty). Al-Qaeda leader 
Ayman al-Zawahiri, among others, encourages both Salafism and armed 
jihad.\5\ Each data point on the y-axis in Figure 1 represents the 
number of active Salafi-jihadist groups that year. As highlighted in 
the figure, there was a steady increase in the number of groups during 
the 1990s and 2000s, but a notable jump in the slope of the line after 
2010. Most of these new groups were in North Africa and the Levant.\6\
---------------------------------------------------------------------------
    \5\ On the term Salafi-jihadists see, for example, Assaf Moghadam, 
``Motives for Martyrdom: Al-Qaida, Salafi Jihad, and the Spread of 
Suicide Attacks,'' International Security, Vol. 33, No. 3, Winter 2008/
09, pp. 46-78; Moghadam, ``The Salafi-Jihad as a Religious Ideology,'' 
CTC Sentinel, Vol. 1, No. 3, February 2008, pp. 14-16.
    \6\ As used here, Levant refers to the area that includes Syria, 
Jordan, Lebanon, Israel, Palestine, and southern Turkey.
---------------------------------------------------------------------------
   figure 1: number of salafi-jihadist groups by year, 1988-2013 \7\
---------------------------------------------------------------------------
    \7\ Jones, A Persistent Threat, p. 27. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Figure 2 provides a rough estimate of the number of Salafi-jihadist 
fighters between 1988 and 2013. Calculating the number of Salafi-
jihadists is difficult, in part since groups do not provide public 
estimates of their numbers and they can vary considerably over the 
course of a group's life. Consequently, Figure 2 includes high and low 
estimates for the number of Salafi-jihadists by year. The trend is 
similar to Figure 1. There was a notable increase in the number of 
fighters after 2010. The biggest jump was in Syria, which witnessed a 
dramatic rise in the number of fighters.
      figure 2: number of salafi-jihadists by year, 1988-2013 \8\
---------------------------------------------------------------------------
    \8\ Jones, A Persistent Threat, p. 27. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Figure 3 highlights the number of attacks by core al-Qaeda and 
affiliates since 2009.\9\ The data indicate a substantial rise in the 
number of attacks over time. Trends for casualties and fatalities were 
similar. There was a 167 percent increase in attacks by al-Qaeda-
affiliated groups between 2010 and 2013, with most of the violence in 
2013 perpetrated by ISIS (44 percent), Jabhat al-Nusrah (24 percent), 
al-Shabaab (22 percent), and al-Qaeda in the Arabian Peninsula (9 
percent). This marked a change from 2012, when al-Shabaab conducted the 
most attacks (46 percent).
---------------------------------------------------------------------------
    \9\ The data on attacks by other Salafi-jihadist groups were much 
less reliable, so I have not included the number of attacks by Salafi-
jihadists outside of al-Qaeda.
---------------------------------------------------------------------------
 figure 3: number of attacks by al-qaeda and affiliates, 2009-2013 \10\
---------------------------------------------------------------------------
    \10\ Data are based on author estimates and the Jane's Terrorism 
and Insurgency Intelligence Centre Events Database. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To summarize the data, there was a 55 percent increase in the 
number of Salafi-jihadist groups from 2010 to 2013, primarily in North 
Africa and the Levant. Libya represents the most active sanctuary for 
Salafi-jihadist groups in North Africa, and Syria the most significant 
safe haven for groups in the Levant. In addition, the number of Salafi-
jihadists roughly doubled from 2010 to 2013, according to both low and 
high estimates. The war in Syria was the single most important 
attraction for Salafi-jihadist fighters.
    These trends suggest that the United States needs to remain focused 
on countering the proliferation of violent extremist groups, including 
Salafi-jihadists, despite the temptation to shift attention and 
resources to other regions and to significantly decrease 
counterterrorism budgets in an era of fiscal constraint.
                      impact on the u.s. homeland
    Not all terrorist groups overseas present a direct threat to the 
U.S. homeland. As Table 1 highlights, terrorist groups can be divided 
into three categories: Those that pose a high threat because they are 
involved in active plotting against the U.S. homeland; groups that pose 
a medium threat because they are involved in plotting attacks against 
U.S. structures like embassies and U.S. citizens overseas (though not 
against the U.S. homeland); and those that pose a low threat because 
they are focused on targeting local regimes or other countries.

                         TABLE 1.--EXAMPLE OF TERRORISTS THAT THREATEN THE UNITED STATES
----------------------------------------------------------------------------------------------------------------
                                             High Threat             Medium Threat              Low Threat
----------------------------------------------------------------------------------------------------------------
Characteristics......................  Active plotting against  Active plotting against  Limited or no active
                                        the U.S. homeland and    U.S. targets overseas    plotting against U.S.
                                        U.S. targets overseas    (e.g. U.S. embassies     targets overseas.
                                        (e.g. U.S. embassies     and citizens).
                                        and citizens).
Examples.............................  <bullet> al-Qaeda in     <bullet> Al Shabaab....  <bullet> East Turkestan
                                        the Arabian Peninsula.  <bullet> Jabhat al-       Islamic Movement.
                                       <bullet> Core al-Qaeda.   Nusrah.                 <bullet> Suqor al-Sham.
                                       <bullet> Some inspired   <bullet> ISIS..........
                                        individuals and         <bullet> Ansar al-
                                        networks.                Sharia Libya.
                                                                <bullet> Hezbollah.....
----------------------------------------------------------------------------------------------------------------

    First, some groups pose a high threat. Al-Qaeda in the Arabian 
Peninsula and possibly core al-Qaeda likely present the most immediate 
threat, along with inspired networks and individuals. The growth in 
social media and the terrorist use of chat rooms, Facebook, Twitter, 
YouTube, and other sites has facilitated radicalization inside the 
United States.
    Second, there are a number of groups that pose a medium threat. Al-
Shabaab's objectives are largely parochial, and it has conducted 
attacks in Somalia and the region. But al-Shabaab possesses a competent 
external operations capability to strike targets outside of Somalia. 
The Westgate Mall attack in Nairobi, Kenya was well-planned and well-
executed, and involved sophisticated intelligence collection, 
surveillance, and reconnaissance of the target.\11\
---------------------------------------------------------------------------
    \11\ Committee on Homeland Security, Al-Shabaab: Recruitment and 
Radicalization Within the Muslim American Community and the Threat to 
the Homeland, Majority Investigative Report (Washington, DC: U.S. House 
of Representatives, July 27, 2011), p. 2.
---------------------------------------------------------------------------
    ISIS and Jabhat al-Nusrah are primarily interested in establishing 
Islamic emirates in Iraq, Syria, and the broader region, though their 
growing networks in Europe and the United States are concerning. Their 
access to foreign fighters, external network in Europe, and bomb-making 
expertise suggest that they may already have the capability to plan and 
support attacks against the West. It is currently unclear whether most 
of these individuals will remain in Syria or Iraq over the long run, 
move to other war zones, or return to the West. And even if some 
return, it is uncertain whether they will become involved in terrorist 
plots, focus on recruiting and fundraising, or become disillusioned 
with terrorism. Still, foreign fighters have historically been agents 
of instability. They can affect the conflicts they join, as they did in 
post-2003 Iraq by promoting sectarian violence and indiscriminate 
tactics. Perhaps more important, foreign fighter mobilizations empower 
transnational terrorist groups such as al-Qaeda, because volunteering 
for war is the principal stepping-stone for individual involvement in 
more extreme forms of militancy. When Muslims in the West radicalize, 
they usually do not plot attacks in their home country right away, but 
travel to a war zone first. A majority of al-Qaeda operatives began 
their militant careers as war volunteers, and most transnational jihadi 
groups today are by-products of foreign fighter mobilizations.\12\
---------------------------------------------------------------------------
    \12\ Thomas Hegghammer, ``The Rise of Muslim Foreign Fighters: 
Islam and the Globalization of Jihad,'' International Security, Vol. 
35, No. 3, Winter 2010/11, pp. 53-94.
---------------------------------------------------------------------------
    Third, some groups present a low-level threat to the United States. 
They do not possess the capability or intent to target the United 
States at home or overseas. They include such groups as the East 
Turkestan Islamic Movement, which has a support base among China's 
Uighur community and is primarily interested in Chinese targets. 
Despite this categorization, there is some fluidity between levels 
because the capabilities and intentions of groups--and their 
leadership--evolve over time.
                   detecting and deterring travelers
    U.S. intelligence, law enforcement, military, and diplomatic 
officials have spent considerable time and resources on understanding 
the threat and developing measures to counter the spread of violent 
extremists from sanctuaries like Syria. But the situation is complex. 
Violent extremists usually don't advertise that they plan to fight in 
battlefields like Syria, and many attempt to take circuitous routes to 
Syria rather flying directly from the United States to neighboring 
countries like Turkey. Moving forward, the United States should 
consider several additional measures to detect and deter violent 
extremists from coming to--or departing from--the United States.
    Working with Europe.--The first is to continue assisting European 
allies, including Turkey, in efforts to identify violent extremists 
traveling to--and from--jihadist battlefields like Syria. U.S. and 
European intelligence collection capabilities are not as robust in 
Syria today as they were in Iraq and Afghanistan, but the number of 
Western violent extremists is greater.
    European states have taken some steps against jihadists traveling 
to--and from--Syria and Iraq. The United Kingdom, Germany, Belgium, 
France, the Netherlands, Spain, Norway, and several other countries 
have arrested some outgoing and returning fighters, facilitators, and 
recruiters. In addition, several European countries have stripped their 
welfare benefits, frozen their financial assets, and seized their 
passports to prevent further travel. The United Kingdom, in particular, 
has established robust measures. In June 2014, the United Kingdom 
passed legislation banning ISIS and four other Syria-linked extremist 
groups, giving it the ability to prosecute individuals associated with 
or supporting these groups. The United Kingdom is one of only seven 
European countries that can seize passports of Syria-bound travelers 
not charged with a separate offense.
    The United States should continue working with its allies to 
improve European counterterrorism and counter-radicalization measures 
in several areas:
  <bullet> Regional intelligence-sharing.--Increased counterterrorism 
        intelligence sharing across Europe would strengthen regional 
        awareness of returnees and Syria-based plotters. But some 
        European states appear to be reluctant to implement 
        comprehensive intelligence-sharing mechanisms across Europe 
        because of data privacy, data protection, and other concerns. 
        Improved European Union approaches to the foreign fighter 
        problem, including strengthening Schengen area border security 
        and expanding the use of the EUROPOL and INTERPOL notice 
        system, would enhance European states' ability to mitigate the 
        threat.\13\
---------------------------------------------------------------------------
    \13\ The Schengen area includes 26 European countries that have 
abolished passport and any other types of border control at their 
internal borders, permitting the free movement of individuals.
---------------------------------------------------------------------------
  <bullet> Attendance at terrorist camps.--Criminalizing attendance 
        (not just training) at terrorist camps overseas would likely 
        deter some terrorists from traveling to Syria and Iraq, as well 
        as allow states to prosecute more returnees. It is likely an 
        easier charge to prove than receiving terrorist training. The 
        United Kingdom is the only European Union country with such a 
        law. The United States prohibits attendance at terrorist camps 
        overseas.
  <bullet> Pre-emptive action.--Once individuals arrive in Syria and 
        Iraq, it is already late in the radicalization process for 
        those committed to violent extremism. If there are adequate 
        legal grounds to arrest individuals before they travel to Syria 
        or Iraq, however, it would be helpful. Norway, Netherlands, and 
        France are among the few European countries that have 
        preemptively arrested extremists preparing to travel to Syria.
    Counterterrorism at Home.--The FBI, Department of Homeland 
Security, and State and local agencies have already increased efforts 
to counter the flow of violent extremists into--and out of--the United 
States. But the United States should consider a few additional 
counterterrorism steps. Following are two examples.
    The first is to increase intelligence collection on potential 
American violent extremists traveling to--and from--Syria and to ensure 
that U.S. agencies (such as CIA, NSA, FBI, and DHS) are adequately 
resourced by Congress to collect, analyze, and process signals and 
human intelligence on such travel. Extremists from the United States or 
other countries with visa waiver access need to be placed on proper 
watch lists in the United States, Europe, and other countries. It is 
troubling, however, that U.S. citizen Moner Mohammad Abu-Salha traveled 
to Syria to fight with al-Qaeda-affiliated rebels, returned to the 
United States around May 2013 without U.S. officials realizing that he 
had trained with an al-Qaeda-linked group, and traveled back to Syria 
in November 2013 before blowing himself up in a suicide attack in May 
2014. In short, U.S. officials apparently did not realize that a U.S. 
citizen who had received terrorist training in Syria was on American 
soil for approximately 6 months before returning to Syria to perpetrate 
a terrorist attack overseas. Was this a problem in U.S. intelligence 
collection or analysis overseas, information sharing with allies, 
customs and border protection inside the United States, law enforcement 
gaps inside the United States (including with violent extremists on the 
internet and social media), or something else?
    Second, the United States should consider adopting--and Congress 
should consider studying and potentially funding--a modified version of 
the United Kingdom's bottom-up law enforcement approach to 
counterterrorism. In the United Kingdom, there is a counterterrorism 
coordinating officer in each local police force, ranging in size from 
one officer to several hundred in the Metropolitan Police Special 
Branch. This is the point of contact for counterterrorism in local 
communities.
    The FBI and large U.S. police departments--such as Washington, New 
York, and Los Angeles--are better prepared for counterterrorism than 
most other departments. But terrorist plots are often hatched outside 
of these urban centers, and many of the Americans traveling to 
battlefields like Syria are apparently from rural or suburban areas. 
Moner Mohammad Abu-Salha lived for a time with his brother in Fort 
Pierce, Florida, 130 miles north of Miami. Najibullah Zazi constructed 
his bombs to attack the New York City subway in Aurora, Colorado. 
Faisal Shahzad rigged his dark blue Nissan Pathfinder with explosives 
in Connecticut, and then drove it to Times Square in New York City. 
Many smaller police forces are not involved in counterterrorism, 
understandably focusing on criminal activity and other local 
challenges. Their departments often aren't resourced, trained, or 
prepared to deal with violent extremists in their communities. Yet 
local law enforcement agencies have a permanent presence in cities and 
towns, and frequently a better understanding of local communities. As 
Bruce Hoffman argued in his book Inside Terrorism, a critical step in 
countering terrorist groups is for law enforcement officials to 
``develop strong confidence-building ties with the communities from 
which terrorists are most likely to come or hide in . . . The most 
effective and useful intelligence comes from places where terrorists 
conceal themselves and seek to establish and hide their 
infrastructure.''\14\
---------------------------------------------------------------------------
    \14\ Bruce Hoffman, Inside Terrorism, Second Edition (New York: 
Columbia University Press, 2006), p. 169.
---------------------------------------------------------------------------
    One variant of the U.K. approach in the United States might be to 
consider appointing a counterterrorism representative in most police 
departments to act as the intelligence point of contact across the 
department for counterterrorism. Counterterrorism would not necessarily 
be the full-time responsibility of this individual or group, who might 
be more focused on dealing with drugs, homicides, or other local 
challenges. But this individual would be responsible for coordinating 
concerns about violent extremists in their community and improving 
outreach programs to businesses, ethnic communities, schools, and other 
locations. In addition to serving as the subject-matter expert on 
counterterrorism (including training and contingency planning), this 
individual would closely cooperate with local Joint Terrorism Task 
Forces and Fusion Centers. Many police agencies do not have a single 
point of contact for counterterrorism.
    It is important to take proactive steps now to deal with the 
problem of terrorist sanctuaries. After all, the threat from violent 
extremists will persist. As a poem entitled ``Mujahid's Wish'' in the 
Spring 2013 issue of al-Qaeda's Inspire magazine highlighted, the 
United States remains a bitter enemy:

``I wish I am in America. It seems odd, right?
Hijra is not the end of a mujahid's ambition.
Walking with an AK is not the end of the road. I used
To think the same as you, until I met brothers in the
Training camps, brothers who look into the enemies'
Barrels and see Jannah. Surprisingly, many of them
Wish to live in America. They have one gentle project
To carry out; detonating even one bomb in any crowded
area. They wish to be lone mujahideen like Tamerlan.
Many of the brothers who made Hijrah from the West
Wish they have a return ticket, returning home
Heading for mom's kitchen. Not to serve the kuffar
With delicious and exotic meals, but to terrorize the
American society until they case to fight and assault Muslims.
Brother residing in the West, grab your chance and
Walk steadfastly towards your goal.
As for me here in Yemen, whenever I move around with
Explosives around my waist, I wish I am in America.''\15\
---------------------------------------------------------------------------
    \15\ Sheikh Ibrahim Ar-Rubaysh, ``Allah Will Restrain the Evil 
Might of Those Who Disbelieve,'' Inspire, Spring 1434, 2013, No. 11, 
pp. 36-37.

    Mr. King. Let me thank all of the witnesses for their 
testimony. I am going to have two questions. I will ask them 
both and then just ask if each of the four panelists could give 
their thoughts on them.
    One is, we talk about ISIS and we talk about AQAP, et 
cetera, the various groups. If you could give evidence or 
testimony on how much cross-pollination there is, like how 
strictly are these lines of demarcation enforced? Or would you 
find an AQAP bomb-maker, for instance, lending his services to 
ISIS? Again, since the command structure of al-Qaeda seems to 
have broken down, how strictly is the demarcation enforced 
among the other groups? That would be the first question.
    Then, second, Dr. Jones mentioned the--how this appears to 
be--not appears--it would seem to be just by number-wise much 
more of a threat to Europe than it is to the United States. 
Now, we are probably the ultimate target, but as far as 
numbers, there are thousands and thousands of Europeans. If you 
could address the question of not just what laws have been 
passed, but how seriously, other than the Brits, are European 
governments and nations facing this issue of the returning 
foreign fighters? So we will start with Dr. Kagan and just work 
our way across. Thank you.
    Mr. Kagan. Thank you, Mr. Chairman.
    There is a tremendous amount of cross-pollination among the 
groups. I am not persuaded that the command of al-Qaeda has 
broken down. It depends on what you thought the command of al-
Qaeda was to begin with. It has always been a rather loosely-
affiliated organization.
    What we have seen is Zawahiri actually effecting more 
command and control publicly of it, especially with the 
mediation between ISIS and JN, than we usually had seen. But 
what is important to understand is that the leaders of these 
groups represent a human network that has--that for the most 
part goes back decades. A lot of these guys fought together 
against the Soviets. They have been fighting together against 
us for the 1990s. They know each other.
    We should remember that Naser al-Wuhayshi, the head of al-
Qaeda in the Arabian Peninsula, is also the operational 
commander for Zawahiri at this point. We have seen cooperation 
between Shabaab and AQAP. We have these very credible reports 
of cooperation between AQAP and Jabhat Nusra. We have reports 
of cooperation between AQIM and Boko Haram.
    This is a movement. It is a global movement. Its 
organizations are complex, but we should not imagine that these 
organizations are in any way stovepiped from each other.
    Mr. King [continuing]. European government concern and 
action?
    Mr. Kagan. It is beyond my area of expertise to talk much 
about that, except to say that the European focus on privacy, 
to the exclusion of all other considerations, is making Europe 
a very effective cyber safe haven, among other things, for 
malign actors of all varieties, and we are seeing an increase 
of migration of malign cyber activity to European servers 
because they cannot by law inspect any of the packets or things 
that go in and out of those servers.
    Mr. King. With that comment regarding Europe, we will go to 
Mr. Simcox from Europe.
    Mr. Simcox. I will start with Europe. I think that there is 
certainly a recognition that it is a very, very dangerous 
situation, and the foreign fighters returning to Europe are 
going to pose a great problem. The shootings in the Jewish 
Museum in Brussels, we have already displayed that that is very 
clearly the case.
    Where the European countries are very much lacking, I 
think, is two aspects; one, the legislation. Dr. Jones referred 
to this already, and it is a problem in terms of preparatory 
offenses, that--it is easy to obviously take action after a 
terrorist attack has taken place, but some of these preparatory 
ones, European governments aren't well-fitted-out legislatively 
to deal with them.
    In the United Kingdom, we had to pass a lot of laws to 
begin to effectively counter this. We still haven't really got 
it exactly right, but we have been more serious than others on 
taking very stringent actions against those who are preparing 
for terrorist attacks, not just in the United Kingdom, but 
increasingly abroad.
    But I do think they have a problem with political will, as 
well, because, look, a lot of these countries, they hear about 
the problem more than they see it, in terms of it has only been 
the United Kingdom and Spain that have really suffered 
extremely badly in terms of loss of life in Europe from 
terrorist groups.
    There have been other small incidents in France and 
Belgium, but in terms of mass casualties, it is only the United 
Kingdom and Spain that have really suffered. I think that part 
of it is the very nature of the fact that there hasn't been the 
huge loss of life as there has in the United States and the 
United Kingdom to this kind of terrorism.
    In terms of the cross-pollination, it certainly--it 
certainly happens, I would back up all Dr. Kagan said. The one 
thing maybe I would add to that is that one of the good things 
about the intensity of the U.S. drone campaign has been that 
perhaps some of these--let's say somebody like Ibrahim al-
Asiri, the AQAP bomb-maker, it is very hazardous for him to try 
and put his head above the parapet and work too closely with 
groups outside of Yemen and those he trusts very closely in 
Yemen, because the huge amounts of attention that are based on 
people like that, because of U.S. drones and military 
operations is very high, which is why I think we need to keep 
the pressure on in situations like that so that even greater 
interaction between the groups doesn't take place.
    Mr. King. Dr. Brookes.
    Mr. Brookes. Yes, I think that Dr. Kagan has covered it 
quite well. I mean, we should be definitely concerned, this 
most recent plot regarding cell phones and electronic devices 
shows you the force multiplier effect that can take place. If 
you have a very skilled, innovative bomb-maker who might be 
working with willing travelers or willing terrorist operatives 
in al-Qaeda or Syria, I mean, this is very problematic to me.
    We have seen the cross-pollination between AQIM and Boko 
Haram and al-Shabaab and AQAP, and now we are seeing it between 
AQAP and the Syria-Iraq theater of operation. I think this was 
a real wake-up call to us, and I think it may be the most 
imminent threat that we face today. It is going to be a very 
difficult summer.
    My concern about Europe is that--and I mentioned a little 
bit in my testimony is that publicly, are we taking this threat 
seriously? Some of the rhetoric that has come out of the 
administration to me has been troubling and may be breeding a 
sense of complacency.
    I think we are in a very much in a very difficult and dire 
situation here regarding this threat. I think that Europe and 
other parts or places around the world are watching the United 
States and looking for leadership on this issue. I think it is 
critically important that we have some sort of harmonization. 
International cooperation is critically important to fighting 
terrorism, whether you are talking about intelligence, legal, 
funding. I mean, terrorists still need funding to undertake 
operations and travel, so it is critically important.
    I think despite the challenges we are facing with Europe 
right now with Russia, the Ukraine, and things along that line, 
that terrorism has to be a top priority for senior leadership 
in the United States to make the--to increase our security here 
and to our interests overseas.
    Mr. King. Thank you, Dr. Brookes.
    Dr. Jones.
    Mr. Jones. Sure, I will be brief. I realize I am in the red 
now.
    First, on the cross-pollination----
    Mr. King. Don't worry about that. Just go ahead.
    Mr. Jones. Okay. In terms of al-Qaeda in the Arabian 
Peninsula and its role in the Syria-Iraq context, my own view 
is that its relationship is closest with Nusra, because Nusra 
is an al-Qaeda affiliate, along with AQAP, and the relationship 
between Naser al-Wuhayshi, the emir in Yemen, and the Jalani in 
Syria is the closest.
    But I think what everybody said is right. The challenge 
here is that when you have so many foreign fighters coming from 
Europe, some in the United States, North Africa, Australia, 
they move between groups. So there are formal group members, 
but there is a lot of movement of individuals who aren't 
formally affiliated. So in that sense, this makes this more 
challenging than I think we have seen in some other 
battlefields.
    On the European issue, I would just point to one challenge 
on the European context is that the Schengen agreement allows 
for the free movement of people within European Schengen 
countries. The fact that we have different laws, then, among 
these countries means that we have free movement, but we have 
different laws when people return or before they leave, so the 
challenge for us then is we don't have agreement across 
European countries, but we do have the free movement of people.
    So I would say the United Kingdom has been and continues to 
be very concerned and has taken action and considers the threat 
seriously. The French and Spanish, in my view, have been very 
concerned, have conducted operations against Syrians and 
Spanish citizens in North Africa and Syria that they consider a 
threat, and there are several other countries, including the 
Norwegians now, have put laws in place that make it more 
difficult for people to travel to or to rest once they come 
back.
    But I think outside of that, what we are seeing is huge 
variations. With visa waiver access into the United States, 
that should cause some concern here.
    Mr. King. Thank you. Ranking Member, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Dr. Brookes, I just wanted to pick up on something that you 
had said relative to statements coming out of the White House 
and American policy in that part of the world. You know, the 
more you learn about that part of the world, the more you 
conclude that it is an absolute mess and that there are no good 
options for the United States.
    I take you back to September, when the administration was 
looking for Congress to authorize some kind of unspecified 
military action in Syria, which I opposed, primarily because at 
that point it seemed as though, you know, the administration 
was using the justification that 100,000 people had been killed 
because of the use of chemical weapons in Syria.
    Well, the most effective fighters on the other side were 
al-Qaeda affiliates and Islamic extremists who were beheading 
people that were supporting the government. When we looked to 
the rest of the world for support, including the 22-nation Arab 
League, they basically said, yeah, we will support the United 
States as long as we don't have to do anything. Out of 194 
countries, we had explicit support from Turkey and France. That 
was basically it.
    So my concern was--and I am very respectful of your 
position--I don't mean this to be antagonistic at all, I just--
I want to probe it, to be truthful. You know, the United States 
would have essentially went in to litigate a civil war in that 
part of the world for the third time, essentially alone again. 
That to me is very troubling.
    The United States gets played in that part of the world, 
whether it is the corrupt government in Afghanistan and its 
successor corrupt governments or whether it is the situation in 
Iraq. You know, someone had mentioned Qasem Soleimani, who is 
head of the Quds Forces, which as I understand it is 
essentially a cross between special forces and the CIA. You 
know, he cut the deal in Iran to give Nouri al-Maliki another 
term in office. So where do his loyalties lie?
    You know, at some point, at some point, these countries 
have to take responsibility for their own future. The United 
States has a limited role here. You know, General Jack Keane 
and Dr. Kagan and so many others, you know, the surge in Iraq 
was intended to do one thing, really--tamp down violence to 
allow a breathing space within which the warring factions could 
reach political reconciliation, including the sharing of oil 
revenues, to peacefully coexist in that country toward the goal 
of forging some kind of semblance of democracy.
    That has been an abject failure. Nouri al-Maliki was told 
at that time that unless and until he could reach into the 
Sunni community, the Kurd community, and instill a sense of 
confidence that he had the leadership ability to forge 
something better, we would end up with what we have. What we 
have is not our fault. The American military did everything 
possible and continues to in an advisory role to give them the 
opportunity to forge a better future.
    But unless and until these two warring factions realize 
that, you know, the future is more important than these past 
grievances. So I went on a little bit, but, Dr. Brookes, go 
ahead.
    Mr. Brookes. I am not sure where to start with that, but 
thank you very much for sharing your thoughts. I mean, there 
are a lot of opportunities to go back and talk about 
hypothetical counterfactuals, if we had done something 
different, but we are where we are today. I think that is the 
critical point here, is that I assume that the panelists would 
agree with me--and I will let them speak for themselves--is 
that we are facing a dire threat in that part of the world that 
not only is a threat to U.S. interests--in a difficult part of 
the world--to U.S. interests, but also, I think, increasingly 
to the homeland and what do we do about that? I mean, I did 
talk about some things. Like I said, I wish we had done some 
things differently, but we can't go back and change that.
    So we are really saying, how do we go forward here? I think 
that is the purpose of the panel here, and I think there have 
been some good ideas put out by my colleagues here about what 
we need to do, working with international partners to try to 
deal with us. I hope we can all agree that we have a 
significant problem and that it needs to be publicized. I think 
it needs to be--we need to look at international cooperation 
for help with it. Like I said, going back now, I am not saying 
it is not important, but it is--I think we have to see where we 
go forward now at this point to deal with the challenges that 
we are facing.
    Mr. Higgins. Yield back.
    Mr. King. Gentleman yields back.
    Dr. Broun, from Georgia.
    Mr. Broun. Thank you, Mr. Chairman.
    When I was in the United States Marine Corps, I was taught 
to know your enemy. The President, as you know, of the United 
States has made statements that Dr. Brookes referred to. Osama 
is dead. Al-Qaeda is on the run. Just yesterday, the full 
committee had a follow up on the 9/11 Commission's 
recommendations. Some statements were made by my Democrat 
colleagues that basically supported this type of philosophy.
    Dr. Brookes was talking during his testimony that referred 
to this poor concept, in my opinion, by this administration of 
what we are facing, and I think there are Members of Congress 
that also have this poor concept of what we need to be doing to 
deal with this asymmetrical threat.
    Dr. Kagan in his testimony talked about that our intel 
community, as well as our military, is being decimated. 
Frankly, Dr. Kagan, I think we have had four administrations--
two Republican and two Democrats--that have steadily degraded 
our defense capability. I find that reprehensible. I think all 
four have just steadily degraded our intel communities, as 
well.
    It is boots on the ground that is going to be absolutely 
critical, particularly in these safe havens, for us to know 
what kind of threats that we are actually facing. So I applaud 
your testimony, Dr. Kagan, about that, and I hope the 
administration is listening to you guys, all four of you, 
because I think it is absolutely critical, because we are not 
facing as a Nation the threat that we face, this asymmetric 
threat.
    Now, as a person who believes in the Constitution that our 
founding fathers meant for it to be, the major function of the 
Federal Government should be National defense and National 
security. We don't have enough ships in the Navy, we don't have 
enough wings in the Air Force, we don't have enough brigades in 
the Army, and I can tell you, as a U.S. Marine, God knows we 
don't have enough Marines.
    We are paring the defense capability down, but beyond that, 
we have got a lot of state threats around the world, and we 
have all these asymmetric threats with these safe havens. What 
I would like for you all to do--and my question to you is, what 
would you tell the administration, what can we do?
    The other follow-up question for all four of you is this. 
When you have a snake, the way to kill the snake is cut off his 
head. The greatest amount of financing--I believe is coming 
from Iran. What would you do to help--each one of you--to help 
cut off the head of the supply chain, not only from Iran, but I 
know that from our committee work here that there is financing 
coming from the United States actually to help all these al-
Qaeda-like organizations around the world.
    We have got a tremendous problem. We have got to stop 
worrying about containment, in my opinion, and start cutting 
off the head of the snake and end this once and for all, 
because we are going to be here spending trillions of dollars 
over the next decades, maybe century, if we don't do something 
about it.
    So what is your solution? We will start with Dr. Kagan.
    Mr. Kagan. I can't give you a solution in a minute-and-a-
half or even in quite a few minutes.
    Mr. Broun. Well, you can answer about----
    Mr. Kagan. I will answer your question.
    Mr. Broun. No, I am talking about written answers. I would 
appreciate all of you all----
    Mr. Kagan. I am going to have to ask for quite a bit of 
time on that.
    Mr. Broun. Okay, please do.
    Mr. Kagan. This is a very complicated problem, and there 
are no easy solutions. I think that the Ranking Member very 
articulately put the problem, but I think--and it is something 
that is paralyzing to a lot of people as they think about it. 
This is an insanely complicated problem; it really is. We don't 
have good options. Almost all of the options that we are 
looking at are various degrees of bad or worse.
    But if it were the case that these problems were confined 
to the region, we might be able to say that, you know, this is 
too hard, this is too complicated, we don't have support, they 
need to stand up. The problem is that the threats are to us. We 
must act against them, lest they act against us.
    So we have to address the complexity of this. It is out of 
respect for that complexity that I am not going to answer 
directly what a strategy would be--we are working on this. 
Everyone here at the table is working on it. We are working on 
it at AEI. We are trying to come up with something.
    But, frankly, there is not a lot of appetite in this 
administration for strategy, because we are still having 
arguments about whether or not there is a problem. So the first 
thing that we need to do is what this committee is already 
doing, which is to recognize and publicize the extent of the 
threat and the extent of the problem and say we need to deal 
with it.
    What I will tell you is, we should immediately reverse the 
defense cuts. I agree with you that this has been a bipartisan 
attack on defense going back to the first Bush administration. 
We need to stop the runaway train toward curtailing our 
intelligence activities and impose appropriate oversight and 
appropriate controls to prevent abuses, while simultaneously 
enhancing our intelligence capabilities to understand this 
threat and help us develop strategies for it.
    These are two things that I think Congress can really take 
the lead on that would be extremely important and that will set 
the stage and create conditions that will make it possible to 
execute a coherent strategy as we can try to develop one and 
hopefully ultimately get an administration that would be 
willing to do so.
    Mr. Brookes. Could I add to that? I mean, I agree with 
that. The other thing I would say is--and this may not surprise 
anybody based on my pedigree, but I am continually or 
increasingly concerned that we are unwilling to use military 
direct action in support of U.S. National interests.
    I am not saying there is a military solution to this. I 
believe in using all of the instruments of National policy to 
solve problems, but I sense that there is--everybody doesn't 
really want to say that we shouldn't--you know, the talk about 
using airpower in Iraq, for instance, for dealing with--as one 
of the ways or tools we can deal with this issue. I am 
concerned that people are becoming increasingly worried or 
unlikely to support the idea that we may need to use military 
operations to support our National security. I think that is 
something we have to throw back on the table, along with the 
other instruments of National policy, as an option when we feel 
we are facing an increasing threat.
    Mr. Broun. Dr. Brookes, could I follow up real quickly, if 
I may, Mr. Chairman? I believe very firmly that SF, special 
forces and special ops, are probably the best option to 
utilize, as well as civilian intelligence community--I see Dr. 
Jones shaking his head agreeing with me--and I believe very 
firmly that we need to be expanding, not only our total defense 
capabilities, but I think we need to be expanding our special 
operations community.
    Pushing it down even further out of active forces down into 
the Reserves and even into the Guard units, because I believe 
that is going to be the ultimate solution for military action 
in these kind of things.
    I believe very firmly, we should never go to war unless 
Congress declares war. Congress has not done its duty in--
through the Authorization for Use of Military Force and the War 
Powers Act of controlling Presidents of either party.
    But, Dr. Jones, you shook your head. Agree?
    Mr. Jones. Yes, two follow-on points. No. 1 is, I think we 
have got to be very careful when we talk about this threat that 
we then don't take actions that undermine our seriousness. If 
we talk about this threat, if we talk--if our policymakers talk 
about the importance of counterterrorism missions, but then at 
the same time we are leaving Afghanistan and, by part of that, 
Pakistan, where we have core al-Qaeda that continues to 
operate, we have got a milieu of militant groups, I would just 
ask, how serious are we, then, if we are leaving one of the 
areas where we see the sort-of headquarters and--I don't want 
to overstate this--of the core, Ayman al-Zawahiri. So one thing 
I would say is, we cannot leave after 2016 unless these kinds 
of groups have been defeated or severely weakened.
    The second issue that I would like to see more of, and I 
don't see it much right now, is a specific strategy to deal 
with the kinds of issues we are talking about today. What are 
the areas of the world that we see the most significant threats 
from, including this one we are talking about here today in the 
Syria-Iraq, and what resources are we going to put there?
    Are we going to put in those areas then our sufficient 
signals intelligence collection capabilities, HUMINT, special 
operations forces, efforts to counter the ideology? What I 
don't--what I see missing right now--and I would say this with 
the last administration to some degree, as well--is a specific 
strategy with resources attached to it to deal with it.
    I think until we see that, something we saw Reagan do 
effectively in 1981 and 1982 to deal with the Soviets, I don't 
think--I think we are going to continue to find problems as 
these jihadists groups pop up in a range of different places. 
So I would like to see a strategy, resources put against it, 
and see that communicated to the American public.
    Mr. Broun. Thank you, Mr. Chairman.
    Mr. King. The gentleman yields back. Now the newest Member 
of the committee and the newest Member of Congress, the 
gentleman from Florida, Mr. Clawson, is recognized.
    Mr. Clawson. Everybody is going to be able to say that 
until November. Then I am going to have a little leg up.
    I apologize for being late. I have found in this job that 
you become totally over-scheduled from your first day. So I 
am--in my world previous--was not accustomed to showing up late 
when people are going to speak. I hope you all don't take it 
the wrong way and just really appreciate you all being here. I 
have learned a lot. You know a lot. So I appreciate your 
service to the country.
    I don't come at this in a partisan way. I will say that I 
believe that the Middle East is out of control. Whatever 
president or whatever is accosted, is of no service to me right 
now, because I think one of you said the cliche, ``We are where 
we are.'' Correct, gentlemen?
    I come at a little bit different. I believe that in this 
case, the supply chain is more important than the manufacturing 
site. The manufacturing site may well be Syria, Iraq, or Iran. 
But the supply chain for the next bomb into our country, I 
believe, runs through the heart of Europe, as you have spoken 
to.
    I have lived in Spain and I have seen the immigrant 
population explode from northern Africa. I have seen the sealed 
garbage cans in the subways of Paris when I lived there. I have 
managed plants as far east as Turkey in the Islamic world.
    These are troubled places. I also understand the point that 
you made earlier that these--although the European community is 
one entity in terms of borders, in terms of security, every 
country is so different from the other one. So I don't know how 
we manage that from afar, because it feels like if the wrong 
person gets on a plane to Barcelona, he can get to New York. He 
can get to New York.
    So, therefore, my concern drilling down is: What do we do 
as a country? These are proud countries in Europe, and they are 
our partners. But what can we do to influence that situation so 
that they are more effective? Second, as a Member of this 
committee and a Member of the Foreign Relations Committee, what 
can Congress do and what can we do to help you so that we are 
more safe, relative to what goes on in Europe? Because I think 
another event could be just around the corner.
    Gentlemen.
    Mr. Simcox. Yes, if I could begin, and also I would just 
like to quickly comment on Congressman Broun's question, as 
well, if possible. I think the key thing--the United States has 
to take the lead in this. It really has to take the lead, and 
we--and a lot of Europe will take its direction from the United 
States.
    On something like--Attorney General Holder talked about 
the--was in Norway recently talking about the need for European 
nations to toughen up certain parts of their legislation, which 
they currently aren't doing. The United States, you have this 
material support law which enables you to cover a huge variety 
of terrorism offenses that in Europe just doesn't exist.
    So I think that there has to be a level of grave 
seriousness from the administration in terms of the way it 
talks about this threat. I think at the moment, still, the 
penny hasn't really dropped with the threat that Syria poses to 
the United States and Europe. There was a very unhelpful 
contribution from the former head of MI6 recently where he 
talked about how this could potentially be overblown. I think 
there is a danger we get complacent about the threat to the 
homeland, because there has not been a 9/11-style attack, 
obviously, on that scale since then.
    Just to quickly go back to the defense question, I think 
this is another area where the United States has to take the 
lead, because other NATO countries are cutting defense spending 
even quicker than you are. There is this--this terrible notion 
of smart power that is upheld if everybody cut in different 
ways that we could somehow--the end result of that that we 
would all be safer is one that has taken root in Europe.
    The United Kingdom does all it can. We have been of limited 
help in Iraq and Libya and Afghanistan, but where is the help 
from the rest of Europe in these kind of military 
interventions? It is few and far between, really.
    So, again, I think if America starts cutting its military, 
that is a signal to Europe that it looks for excuses to do so, 
as well. So I really think strong American leadership is 
needed----
    Mr. Clawson. Do we have unified conversations with European 
countries about the security risks so that there is a unified 
effort?
    Mr. Simcox. Do those conversations take place? I believe 
they do from government to government, but I have not seen 
any--I would prefer to see some kind of collective 
announcement. It all seems very piecemeal at the moment, 
because European countries take the level of threat from the 
returnees from Syria very differently.
    So at the moment, I don't think there is anything beyond 
just the cooperation that took place on counterterrorism 
efforts anyway, and Syria is a whole new load of casework.
    Mr. Clawson. But then you would agree that the European 
security and, therefore, our security is dependent on the 
weakest link in the chain in the European community?
    Mr. Simcox. Absolutely.
    Mr. Clawson. If that doesn't create the biggest problem 
here that we have, I don't know what does.
    Mr. Simcox. Certainly.
    Mr. Clawson. Because we are not going to shut it down in 
Syria or Iran all of a sudden. So the pipeline to us is through 
the weakest link in Europe. To your words, there are some 
countries that are not taking it as seriously.
    Mr. Simcox. I believe so.
    Mr. Clawson. Well, anything we can do? If you would like to 
communicate with me privately, I am very interested in this. I 
am not interested in partisanship. I am interested in 
preventing this problem or anything I can do as a Member of 
Congress in preventing this problem. Hope you all don't----
    Mr. Jones. Yes, I just wanted to add, just to make sure 
when we talk about Europe, that we are also adding probably the 
most vulnerable and potentially the weakest link, which is not 
an E.U. country, but is a NATO country, and that is Turkey. The 
concern I have with Turkey is the vast majority of foreign 
fighters that are going into and coming out of Syria, as well 
as Iraq, are coming through Turkey. They are getting there by 
land, by air, and by sea.
    So what I would like to see a little bit more fidelity on 
is, how much information is being passed by the Turks to the 
Europeans and to us about names of individuals with American 
passports and European passports going into and out of Turkey 
for--or into Syria in particular? So I would just--this is--in 
my view, this is not just a Europe or at least an E.U. issue. 
Turkey remains a very--because of its location next to Syria, a 
very, very important and potentially weak link.
    Mr. Clawson. Turkey's economic future depends on 
manufacturing exports to Europe and tourism in the GNC. We 
have--the Europeans have leverage on the Turks. In spite of the 
administration that is in Turkey right now, the country is cut 
in half, that leverage exists back to the point if there is a 
European unified effort to lock down the pipeline, I believe 
Turkey would come along. Their future depends on it. Would you 
agree with that?
    Mr. Jones. Yes.
    Mr. Clawson. So anything you all can pass on to me about 
how we can improve the effort among the European community to 
make the entrance of terrorists safer, I would appreciate it. I 
am sorry if I have taken so much time here.
    Mr. King. The gentleman yields back.
    In view of what we have heard as far as the foreign 
fighters to Europe and, you know, the weak links, do any of you 
have any thoughts about rethinking visa waiver, modifying it, 
adjusting it to the current situation?
    Mr. Simcox. I mean, I couldn't speak to it with any great 
level of gravitas. I think there is, obviously, a great concern 
about the amount of traffic that goes between the United States 
and Europe, and we are right to be concerned about the 
potential threat. I suppose that the one thing I would caution 
against is going over the top on it. In terms of the actual 
numbers, I mean, 2,000 is--which is a potential amount that 
have gone from Europe--is an awful lot, and it is a potential 
threat.
    But in terms of the overall picture of the amount of travel 
between Europe and the United States that does take place, I 
wouldn't want to see a significant strain on relations because 
of an issue like that.
    Mr. Brookes. Mr. Chairman, the only thing I would add, I 
would suggest you may want to talk to some of the people at 
Heritage who deal with visa waiver issues more deeply than I 
do, have a great level of expertise, but my concern is, is that 
we should extend our defense perimeter as far away from the 
United States as possible and beyond Europe.
    I think we--I am not convinced--and unfortunately, I didn't 
have an opportunity to see the House Foreign Affairs Committee 
yesterday hearing on Iraq, but I would want to know as a 
committee Member what the strategy is for dealing with, you 
know, the inside strategy, the Classified strategy for dealing 
with what is going on in Syria and Iraq and the rise of ISIS 
and other al-Qaeda-related groups.
    I mean, I think we need--we would want to be dealing with 
it at that distance, not thinking about it at our shoreline or 
in Europe, as a portal. So--and I am--it is not clear to me--
and, of course, I am outside the Government--that we have a 
comprehensive strategy for dealing with the rising threat that 
arises from groups like ISIS and al-Nusra and other militants 
in that part of that world. So I hope that the administration 
is speaking with you about those issues, but that is where I 
would want my first line of defense would be in theater, and I 
think that is where it needs to be, as opposed to in Europe, or 
at our shoreline.
    Mr. King. I guess the concern I would have is, how certain 
are we as to how certain the European nations are about who the 
Syrian foreign fighters are and to what level are they 
recording that and making that known to us and making it 
available to airline security?
    Mr. Kagan. Mr. Chairman, I think these are very good 
questions. I think I would go back to the issue of 
intelligence, because you are asking an intelligence question. 
The issue with visa is a visa--requiring someone to get a visa 
is only relevant if we have enough information to be able to 
say that we should or should not bring that person in. The more 
that we curtail our intelligence capabilities, the more it 
doesn't matter whether we have a Visa Waiver Program or not, 
because we won't have the intelligence that we need to put the 
pieces together to stop terrorists from getting our own visas.
    This is a problem that we are having in Europe. I think one 
of the other problems that we are having is that the enormous 
damage that the traitor Snowden did to our National security 
includes driving a very powerful wedge between us and our 
European partners on the subject of intelligence sharing, 
working together, and that is something that needs to be taken 
on very directly and very energetically. It is not going to be 
taken on by apologizing to Angela Merkel about listening to her 
cell phone, which is not anyone's issue and also not a surprise 
to Angela Merkel, I suspect.
    It is something that we need to take head-on. Again, it is 
why I say the specifics of what is being done to our 
intelligence capabilities are very important, but the overall 
messaging that is coming out of this country right now is that 
we are more interested in chasing after the possibility that a 
small number of people in the intelligence community might be 
doing things that they shouldn't be doing that are already 
illegal than we are about building up and supporting our 
capabilities to identify exactly the people that you worried 
about.
    If that is our tone, we are going to have a very hard time 
getting the Europeans to take this intelligence problem very 
seriously. So my concern is less will they tell us, and more 
will they know? I think that is something that we really need 
to focus on.
    Mr. Simcox. I would just add to that. We absolutely do not 
know. We don't know who all these--we don't know--I mean, the 
fact that we are estimating in the United Kingdom about the 
amount of people who have gone means we almost certainly don't 
know the amount of people who have come back. To give you an 
idea of the scale of this, I mean, in the United Kingdom, we 
have a relatively large intelligence budget, but nothing 
compared to the United States. There was a speech given a few 
years ago by the director general of MI5 who said that the 
United Kingdom monitors around 2,000 terrorist suspects. The 
threat has remained reasonably constant since then.
    If you are talking about potentially 500 returnees from 
Syria--now, I know there won't be 500. Some will have died over 
there. Some may not come back. Some may not pose an absolute 
direct threat. But that is potentially about a quarter of MI5's 
case work just being added on in one conflict. There isn't the 
capacity in any way, shape, or form to begin to deal with that, 
even if we knew who all the people were, and we don't, which is 
why it is such a great problem for us.
    Mr. King. Okay. Dr. Jones.
    Mr. Jones. I think the political and economic 
relationship--and even the military one with the Europeans is 
important and will continue to be important. I think rethinking 
visa waiver in general probably would not be helpful over the 
long run. I mean, there may be ways to work on trying to close 
gaps in laws that allow individuals from moving to or coming 
back from Syria, but I agree with what a number of people here 
have said. The issue is getting names on watch lists.
    Look, our presence in Syria--even the U.S. presence is not 
like what it was in Afghanistan after the overthrow of the 
Taliban regime. It is not like what it was in Iraq. The 
jihadist problem is worse. We have much worse collection 
capabilities in these countries.
    The issue I would also point out is, we have gotten it 
wrong, too. This is not just about the Europeans. We didn't get 
it right with the Tsarnaevs, the Boston bombers, who had 
traveled. We didn't get it right with Abu-Salah, who had gone 
to fight, come back, and then returned to blow himself up. We 
didn't catch Zazi going back and forth. We didn't catch Shizad 
going back and forth. So we continue to have similar issues 
with Americans going over and returning, as well.
    So, you know, I think we also cannot forget that we have 
got issues with putting the right people on our watch lists, as 
well as pointing fingers at the Europeans.
    Mr. Brookes. I think, Mr. Chairman, we also--and I am sure 
this committee is obviously concerned about this and looking at 
it--is the lone wolf that is already here that may be inspired 
by what is going on there and never travels abroad. Obviously, 
that is always a concern to us, but this--what is going on, as 
I mentioned in my testimony, I think the establishment of this 
caliphate is going to be inspirational to many Islamists around 
the world on a number of different levels. I don't know what 
effect it will have, whether it brings in more foot soldiers or 
brings in more funding, brings in alliances. Of course, there 
probably will be some that will oppose it, as well, but that is 
another thing we have to worry about is the inspiration of 
Osama bin Laden's ideology and al-Qaeda's ideology for people 
wherever they are.
    Mr. King. All right, thank you.
    The Ranking Member.
    Mr. Higgins. Yes, just--you know, to what extent does the 
panel--I say this generally--believe that this is really a 
battle for control of that part of the world between Shia and 
Sunni that goes back to the 7th Century? Now, I was kind of 
intrigued, you know, the quick emergence of this Abu Bakr al-
Baghdadi, you know, where would this guy come from? Why is he 
so extreme to even be essentially shunned in some reports by 
al-Qaeda, that--I don't think anybody accepts that that is a 
benign organization.
    If you look at the origins, Abu Bakr was, you know, head of 
the first caliphate. He was the rightful successor as Sunnis 
believe to the Prophet Muhammad. His daughter was married to 
the Prophet Muhammad. He was a companion of him.
    You know, you see how--what he says about Shias, that they 
are apostates, that they are not true Muslims. Vali Nasr, in 
his book ``The Shia Revival,'' said that Sunnis in Lebanon 
believe that Shias have tails. I just think what you have got 
going on here is a battle for control of the 1.6 million Muslim 
world, the vast majority of whom are Sunni, but Shia obviously 
control, you know, Iran and now Iraq.
    So, you know, what I am trying to figure out my own view of 
things is, can you allow that battle between these two groups 
to proceed and, at the same time, concurrently protect the 
homeland by use of military and intelligence? But I will leave 
it to the panel.
    Mr. Kagan. It is a great question, and it goes obviously to 
the heart of the complexity of the problem. There is now a 
sectarian war between Sunni and Shia that runs from the Persian 
Gulf to the Mediterranean and is expanding. I do not believe 
that that is a spontaneous development, and nor that it is a 
continuation of what--of--because, in fact, this is a worse and 
more widespread sectarian war than the Muslim world has seen 
for many, many centuries. This is an extreme aberration in that 
world. There have always been sectarian tensions, but organized 
sectarian warfare of this variety is extraordinarily rare in 
the Muslim community.
    It is not accidental. It was caused in large part by the 
deliberate policies of Abu Bakr al-Baghdadi's predecessor, Abu 
Musab al-Zarqawi, who believed--apparently rightly--that it 
served his interests to stoke sectarian war in Iraq to try to 
get the Shia majority in Iraq to attack the Sunni minority in 
Iraq in order to drive recruitment for his cause, and that has 
been successful and it has spread and sectarian groups on both 
sides are leaning into this.
    But the battle for the Muslim world that I am most 
concerned about is not the sectarian fight. It is the battle by 
al-Qaeda, which is an insurgent group fundamentally that does 
desire to gain control over the entire 1.6 million--or billion 
ummah to do so. I believe that its attempt will ultimately 
fail, because--and I am happy to have this conversation with 
you at greater length--this is part of the heresy that--what 
they espouse, in my view, part of a heresy that goes back to 
the very, very first days of Islam. It has emerged 
periodically. It is always rejected in the end by the Muslim 
community, and I believe that it will be rejected again here.
    The question is: How long will it take? How much damage 
will be done in the mean time to the Muslims themselves and to 
us? But that is why I think that you can't separate the fight 
against al-Qaeda from the sectarian fight. We have to address 
both of those problems, and it is why we have to be careful--as 
one of my panelists said--not to look at short-sighted 
solutions to the problem.
    I was the one who mentioned Qassem Soleimani. I follow Haji 
Qassem very closely. If the more we support the Iranians, the 
more we fuel the sectarian war, the more we provide a 
recruiting basis for al-Qaeda. So we must not look at short-
term solutions that say let's back Assad because he might be 
fighting Sunni extremists, let's back Maliki--and I agree with 
every word you said about Maliki and would add a lot more and 
not fit for printing--let's just back this guy because he is 
fighting al-Qaeda. No. That is why we do have to engage in the 
complexity, painful as it is.
    Mr. Jones. Mr. Higgins, Ranking Member Higgins, I just 
wanted to add two comments to what Dr. Kagan said. No. 1 is: I 
do think you are right. There is an important Shia-Sunni 
sectarian component of this. The group we see in Iraq and also 
in Syria, ISIS, since its origins under Abu Musab al-Zarqawi in 
western Afghanistan, has been among the most anti-Shia of any 
of these jihadist organizations. That translated when he went 
into Iraq before the U.S. invasion and then when he associated 
himself with al-Qaeda.
    He has--this group has been--has committed the most 
atrocities against Shia. But I would say, more broadly, the 
largest amounts of violence we have seen in jihadist 
battlefields has been intra-Sunni. There is intense fighting 
among Sunni organizations, and this gets me to my second point 
briefly, which is I think Fred is right, that there is--this is 
about extremism versus non-extremists. As we have seen these--
where these groups have been beaten back in Mali, with French 
and U.S. participation, in Saudi Arabia in 2003 and other 
locations, during the Awakening, it has been Sunnis that have 
pushed them back in areas because their views are too extreme.
    I think they will go down and they will go down in part 
because Sunnis will not accept these extremists, because they 
do not espouse the views of most Muslims in these areas. Thank 
you.
    Mr. Simcox. I think there certainly is battle of sectarian 
warfare going on and battle for control, but what we have to 
avoid is the temptation to then just take a step back and say, 
well, everyone is as bad as each other, we can't do anything 
about this, and retreat towards isolationism. We have a role to 
play, and we have a great stake in the outcome. We have a great 
stake in as best as we can trying to foster democratic 
movements in that part of the world, because some of these 
groups that we are worried about and that we are talking about 
today, their ideology and their ambitions don't stay at their 
own borders. They ultimately come to affect us in the homeland, 
so we have to be very active in our engagement in that area.
    Mr. Higgins. Just a final thought. There is a relatively 
recent book by Marwan Muasher called ``The Second Arab 
Awakening.'' In it, you know, he argues that that part of the 
world is very pluralistic. Unless and until there are, minority 
rights, these battles will always continue.
    So if there is--you know, it is a zero-sum game. So long as 
there is a zero-sum game, in order for somebody to win, 
somebody has to lose. Unfortunately, it is not ideal, but it is 
the reality that civil wars in world history are a part of 
nation-building. You know, we in our own country had a civil 
war. About 625,000 people died in the American civil war. At 
that time, our Nation's population was probably about 38 
million people. That is pretty significant.
    It just seems that I understand the importance of this. I 
understand the importance of protecting the homeland. I really 
do, and I would do anything in my power to support policies to 
achieve that objective. But the fact of the matter is, 
everybody has been wrong, Democrats and Republicans, Democratic 
administration, Republican administrations, because of the 
complexity of these kinds of issues.
    It just seems to me that more military intervention, if it 
is viewed as supporting the Maliki government in Iraq, despite 
the fact that he doesn't deserve American support, because he 
only came to us when he was threatened. He cut a deal with the 
Iranians to keep him in power. This is just a vicious cycle 
that will continue, and there is really no game-changing moment 
unless and until the warring factions make a decision that in 
order to progress, they have to coexist peacefully.
    You know, a lot of people say that, you know, that is 
impossible, particularly in that part of the world, but, you 
know, when you look at the situation in Northern Ireland, the 
Protestants and the Catholics, they had to do one thing before 
they were accepted to the negotiating table. They had to 
renounce violence. They had to renounce violence and then they 
had to participate in an international process to destroy their 
arms, to confirm that they were disavowing the tradition, both 
traditions, both sides of violence, then and only then--and it 
wasn't unilateralism, it was mutuality--they progressed.
    The United States and Great Britain played an extraordinary 
role in that great achievement, albeit still with problems, but 
that was a major, major achievement. The United States didn't 
deploy any military troops. We had great leverage.
    So I just think that, you know, we are going to be here 5 
years from now, because talking about the same things, because 
this will require at least another generation. Any involvement, 
for every action, there is a reaction. It seems as though, when 
there is a reaction, typically it doesn't accrue to the benefit 
of the United States.
    So I will yield back. Thank you.
    Mr. King. Gentleman from Georgia.
    Mr. Broun. I will just add a little more and just associate 
myself with what my friend from New York, Mr. Higgins, just 
said. I think very long-term the basic solution is going to be 
the non-extremist Muslim saying, ``We are not going to put up 
with this anymore world-wide.'' Somehow we as a Nation need to 
foster that type of philosophy within the Muslim community.
    Part of our heritage, part of our Constitution, part of 
what we are all about is accepting people of different 
religious beliefs. I don't think as a Nation we have really 
understood how important it is to work with the non-extremist 
Muslim community world-wide to try to help stop this. Again, I 
think it is intelligence as well as our special ops people who 
can help foster this.
    Can you all expound upon that philosophy that I have that 
it is going to be the Muslim community itself that just rejects 
extremism and stops it world-wide, as opposed to us doing what 
we have been doing, again, has been all about containment?
    Mr. Kagan. I do agree with you that this ends when--or ends 
for now when the Muslim community does reject this. But this is 
not a theoretical political ideological discussion that is 
being had in the Muslim right now. It is a war. This is 
something that we really can't lose sight of, because you can 
be an Iraqi and most Iraqis reject the Islamic State ideology. 
But that doesn't do you any good if the Islamic State are the 
guys who have got the guns and the gun trucks sitting on every 
corner going around, rounding up everybody who speaks against 
them, killing them.
    If you don't have an ability to defend yourself against 
those people, then disagreeing with their ideology is just an 
extravagant way of committing suicide. We have done this 
before. With respect to the Ranking Member, not everything we 
have done has failed and not everything that we have tried has 
been a mistake.
    We did enable the Iraqi Sunni community to turn against al-
Qaeda in Iraq in 2007. We did support them, and they did reject 
them, and they put 100,000 of their own sons into the front 
line against this organization. Now, Maliki screwed that up, 
absolutely, right with you on that, sir. But they did turn. 
What made them turn? One of the things that made them turn was 
the belief that they would win, that they would fight, they 
would bleed, they knew that, but when they came to believe that 
they could win, they were willing to do that. We had to help 
them believe that they could win.
    So what I would say is, no one is advocating a blanket, 
large-scale military intervention around the world. That is not 
what we are talking about. Although this committee is not 
engaged in this, there is a lot of straw man discussion that is 
going on in town where people are saying, oh, you just want to 
send hundreds of thousands of troops. I don't know anybody who 
is advocating doing that.
    What I am going to say is that from the standpoint of 
answering the question: Who is capable of helping moderate 
Muslims defeat militarily the people who are attempting to 
impose this ideology upon them by force? That capability does 
not exist within the Muslim community right now.
    Our alternative is going to be, we are either going to help 
provide that capability to defeat this organization so that 
what you are describing can occur, which I believe it will, or 
we can have this protract for a much longer period of time, 
have many, many, many more people die, including our own, and 
have this movement spread.
    I believe we can affect this. Although I absolutely do 
understand that every action we take has a consequence and 
there are going to be unforeseen consequences, we also need to 
recognize that inaction has consequences and very frequently 
unforeseen, but in this case very foreseeable consequences.
    One of those is, is that if no one takes action to help 
moderate Muslims defeat the armies of extremists they are now 
facing, those armies will triumph for quite some time and the 
situation will get a lot worse.
    Mr. Broun. I agree with you. Again, I think it is our intel 
community and our SF and special ops military forces that are 
going to pay a key role in doing just that.
    Mr. Chairman, if you will give me one more question, I 
would appreciate it, because I believe the policies of four 
administrations--two Republicans and two Democrats now of open 
borders--and they have--both Bush administrations, the Clinton 
administration, as well as now the Obama administration--have 
absolutely refused to secure our borders. To me, that is a 
National security issue. I think the United States is becoming 
a safe haven, also, because of administrations.
    Again, I think it is going to take intel, boots on the 
ground, not monitoring every American's emails and phone calls, 
but having the intelligence community in this country, as well 
as worldwide, to have that human intelligence is absolutely 
critical for us to make sure that America is as safe as 
possible.
    So I assume all of you all would agree that we need to 
secure the borders and we need to do it as quickly as possible. 
Is my assumption correct? Yes, no, all four of you?
    Mr. Kagan. Yes, I would agree with you. But I think the 
larger point you are making is also very important, that----
    Mr. Broun. Well, absolutely.
    Mr. Kagan [continuing]. The defense of the borders does not 
start at the border.
    Mr. Broun. No, in fact, a lot--40 percent of the people 
here in this country illegally--in fact, all of the ones that 
perpetrated the 9/11 attack came here legally. They just 
overstayed their visa. That is also a part of the problem that 
we have as a Nation. We don't know when people come and go, and 
we are not following them.
    Again, four administrations have been guilty of just 
saying, come if you want to, and we know--people coming across 
our Southern Border, I am sure across our Northern Border, as 
well, that are--the Department of Homeland Security and CBP 
calls them OTMs, other than Mexicans. We are capturing folks 
from the Middle East, from Asia, that are coming across our 
borders.
    But who are we not capturing? With this flood of 
unaccompanied minors that are coming into this country, it is--
that our administration has encouraged is exacerbating the 
problem that we have from entities coming into this country 
with other than generous reasons towards helping the United 
States or for economic reasons. I think they are coming here.
    So I would appreciate just a written idea from all of you 
all, too, about--and I am going to ask a question for you to 
answer about the funding, if you would, please answer that in 
writing about--again, we see Iran funding Hezbollah, as well as 
Hamas, both sides, from Sunni, as well as Shia. Iran is a huge 
part of this issue, and I don't see this administration or the 
previous administration really dealing with Iran to the 
strength that we need to.
    If you all have any suggestions about doing so, Mr. 
Chairman, my time is up, unless they want to have a comment.
    Mr. King. Actually, if you could do it in writing, I would 
appreciate it, because we are running short on time.
    So--the gentleman from Florida.
    Mr. Clawson. A little economic practicality here might be 
in order. I think that the idea that we are the only arbiter in 
the Arab world as this religious political civil war plays out 
bothers me a little bit. Our trade deficit with Arab nations 
and with oil-exporting nations, it is hundreds of billions of 
dollars. They should be part of this solution. It is their 
neighborhood, and it is our money that goes from our consumer 
to their pocketbooks. Where are the gulf nations?
    We have had this conversation today, where that hasn't even 
come up. We should not be funding this. We are paying them. We 
are paying for our oil, first of all. I think I am in agreement 
with the Ranking Member that this is going to be such a 
complicated thing. It is so difficult, because it is the 
intersection of Government and religion which makes it a lot 
different than a lot of civil wars that we have seen. It has 
been going on for centuries.
    I think in the Muslim world, now means 100 years time 
frame, and America now means a week. Their now is a very long 
now, isn't it not, gentlemen? So, therefore, I revert back to 
what I am worried about for us, our allies, and especially 
Israel, what--assuming we can't solve this program anytime 
soon, I am worried about the supply chain, coming through 
Europe or, to your point, Mr. Jones, straight to the United 
States. It matters not to me all of our intelligence and all of 
our resources to cut off people that are going to do us and our 
enemies harm.
    I am not saying, Mr. Congressman Broun or Mr. Brookes, that 
we shouldn't be engaged there--you know, with special forces or 
anybody else. I am saying I think that is a very difficult 
situation that won't be solved anytime soon, even if we do pull 
the right knobs, and in the mean time, let's cut off the supply 
chain. Any communication to me that we can do to help or that I 
can do to help, I am all ears.
    I yield back.
    Mr. King. I want to thank the witnesses for their 
testimony. I would just say, in conclusion for myself, this 
could be a battle and struggle that goes on for decades, 
centuries, whatever. My concern is the innocent Westerners that 
are killed in the mean time. As far as whether or not we have 
had success, the fact is, there has not been a major attack on 
our mainland since September 11, 2001. To me, that is a 
success.
    It didn't happen just because you waited for it to resolve 
itself. It is because we did take aggressive action, not always 
done perfectly, but the fact is, we took action, and I think it 
is because of that that we are a safer Nation today or at least 
we have been protected more--since 9/11 than we have before. I 
think emerging threats could make it more dangerous, but that 
would even exacerbate itself if we lowered our defenses.
    As far as the question of intelligence, I think it is 
absolutely essential. The gentleman from Georgia and I can have 
a debate, because I don't believe the NSA is listening to 
anyone's phone calls or reading anyone's emails, but that is 
another story for another hearing.
    But if we don't fully use our intelligence capabilities and 
don't maximize our potential, I believe that--while the Sunnis 
and the Shias and the fragmentation within the Sunnis is being 
resolved, I don't want Americans killed in the mean time. Mr. 
Simcox doesn't want Europeans killed, nor do I, and I think 
that is really what this is about, how we keep enough pressure 
on to protect us and protect the homeland. I don't think any of 
us ever wants to go through another 9/11.
    So with that, the hearing stands adjourned. I thank the 
witnesses for their testimony. As the gentleman from Georgia 
said, any questions that you want to respond to in writing, he 
is more than willing to take them. Thank you.

    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
